No. 19-1371
In the
SUPREME COURT of the UNITED STATES
ROGER DEAN WALDNER,
Petitioner,
v.

BRADLEY R. HARTKE; DOUGLAS P. HARTKE; JOAN L.
HARTKE, INDIVIDUALLY AND AS TRUSTEES OF THE
JOAN L. HARTKE QTIP MARITAL TRUST DATED
7/12/1996 AND AS TRUSTEES OF THE ROBERT EUGENE
HARTKE FAMILY TRUST DATED 7/12/1996; THE JOAN
L. HARTKE QTIP MARITAL TRUST DATED 7/12/1996;
THE ROBERT EUGENE HARTKE FAMILY TRUST
DATED 7/12/1996,
Respondents.
On Petition for Writ of Certiorari
To the United States Court of Appeals
For the Eighth Circuit
PETITION FOR REHEARING
Roger Dean Waldner,
Petitioner, Pro Se
P.O. Box 485
Redfield, SD 57469
Phone: 605-472-3135

RECEIVED
NOV - 5 2020
OFFICE OF THE CLERK
SUPREME COURT. US

GROUNDS FOR REHEARING
(Rule 44.2)
Petitioner Waldner seeks rehearing on the grounds
that Justice Barrett became a member of this Court only
after his Petition for Certiorari had been denied on October
5, 2020. The Plaintiffs admitted, after the case had been
affirmed on appeal that they had manufactured deliberately
false jurisdictional facts before the courts below to name
Waldner as a defendant. App. L at 49-50.
Justice Barrett may bring fresh eyes to Waldner s
Petition, apprehend issues with her own unique views on the
applicable law, and thereby cause this Court to grant his
Petition.
I.

QUESTIONS PRESENTED FOR REVIEW

Relief from a void judgment under “Rule 60(b)(4)
applies only in the rare instance where a judgment is
premised either on a certain type of jurisdictional error . . .”
United Student Aid Funds v. Espinosa, 559 U.S. 260, 270
(2010). “Article III of the Constitution limits the ‘judicial
power’ of the United States to the resolution of ‘cases’ and
‘controversies.’” Valley Forge College v. Americans United,
454 U.S. 464, 471 (1982). See also Campbell-Ewald Co. v.
Gomez, 136 S. Ct. 663, 679 (2016) (“If either the plaintiff or
the defendant ceases to have a concrete interest in the
outcome of the litigation, there is no longer a live case or
controversy.”).
The Hartke-Respondents brought suit in 2017 against
Roger and others to void stale notes and mortgages. After
appeal in their favor, the Hartkes made judicial admissions
that Roger was not a party to the notes or mortgages and had
no interest in the judgment obtained. Their judicial
admissions mean that Roger never had a concrete interest in
the outcome of the litigation. The district court exercised
Article III judicial power over a non-case and a non­
controversy.

The following questions are presented for review:
1. Is a district court’s exercise of Article III judicial
power over a non-controversy a rare instance of
jurisdictional error that renders its judgment void?
2. If so, is the judgment so affected by a fundamental
infirmity that the infirmity can be raised even after
the judgment became final?
3. In lieu of plenary review by this Court, is a 'GVR1
Order, without determining the merits, appropriate
for the following reasons:
•

There is a reasonable probability that a GVR Order
in light of the Hartkes’ judicial admissions will
result in voiding the judgment?

• The Hartke admissions are “confessions of error”
that, because Roger had no concrete interest in the
dispute, no case or controversy existed?
.

'0*1

• A GVR Order would promote fairness to Roger
without using much of this Court’s limited docket?
•

There is reason to believe the Eighth Circuit did
not fully consider the legal significance of the
Hartkes’ judicial admissions?

1 Roger uses shaded highlight herein for ease of reference.
ii

II.

ALL PROCEEDINGS BELOW

1. United States District Court, District of Minnesota,
Case 0:17-cv-01851, Bradley R. Hartke, et al., v.
WIPT, Inc., et al.
2. United States Court of Appeals for the Eighth Circuit,
No. 17-3702, Bradley R. Hartke, et al., v. WIPT, Inc.,
et al.
3. United States Court of Appeals for the Eighth Circuit,
No. 17-3685, Bradley R. Hartke, et al., v. WIPT, Inc.,
et al.
4. United States District Court, for the District of
Minnesota, 18-cv-976 JRT/SER, Bradley R. Hartke, et
al., v. WIPT, Inc., et al.
5. United States Court of Appeals for the Eighth Circuit,
No. 19-2813, Bradley R. Hartke, et al., v. WIPT, Inc.,
et al.

iii

III.

TABLE OF CONTENTS

Contents
i
I. QUESTIONS PRESENTED FOR REVIEW.
iii
II. ALL PROCEEDINGS BELOW.......................
III. TABLE OF CONTENTS..................................
IV
.V
IV. TABLE OF AUTHORITIES............................
V. PETITION FOR WRIT OF CERTIORARI...
1
VI. OPINIONS BELOW.........................................
1
VII. JURISDICTION................................................
1
VIII. CONSTITUTIONAL AND STATUTORY
2
PROVISIONS............................................................
IX. STATEMENT OF THE CASE........................
2
a.
Background.................................................
2
b.
Hartkes’ Judicial Admissions....................
3
X. REASONS FOR GRANTING THE WRIT....
5
A.
A GVR Order, without determining the merits,
may be appropriate, leaving it to the lower court to
decide if the Hartkes’ judicial admissions warrant
dismissal of the judgment as void................................ 5
1.
Hartkes and their Counsel deceived the lower
courts.................................................................................. 5
2.
GVR is appropriate, because the Hartkes’judicial
admissions were not fully considered below................... 6
3.
The Hartkes’jurisdictional fraud undermined the
6
very legitimacy of the judgment................................
4.
A GVR Order is appropriate because the very
temple of justice has been defiled..............................
8
B.
The Hartkes’ pre-judgment deceit is revealed
by their post-appeal judicial admissions
9
C.
The Hartkes lulled the district court into a
clear usurpation of Article III “judicial power” that
10
rendered its judgment void against Roger.
12
XI. CONCLUSION................................................
XII. APPENDIX - TABLE OF CONTENTS......
13

IV

IV.

TABLE OF AUTHORITIES

Cases
9
Allen v. Wright, 468 U.S. 737 (1984).............................
6, 8
Calderon v. Thompson, 523 U.S. 538 (1998)...............
Campbell-Ewald Co. v. Gomez, 136 S.Ct. 663 (2016).,.
i, 9
Camreta v. Greene, 563 U.S. 692 (2011).......................
9
Daimler Chrysler Corp. v. Cuno, 547 U.S. 332 (2006)..
11
Hazel-Atlas Co. v. Hartford Co., 322 U.S. 238 (1944)..
6
Lawrence v. Chater, 516 U.S. 163 (1996)...................... 4, 5,6
Lewis v. Continental Bank Corp., 494 U.S. 472 (1990)
10
10
Preiser v. Newkirk, 422 U.S. 395 (1975).......................
Simon v. Eastern Kentucky Welfare Rights Organization,
426 U.S. 26 (1976)............................................................ 11
Spencer v. Kemna, 523 U.S. 1 (1998)................................. 10
Standard Fire Ins. Co. v. Knowles, 568 U.S. 592 (2013).. 4, 6
United Student Aid Funds v. Espinosa, 559 U.S. 260 (2010)
............................................................................ i, 11, 50, 53
Universal Oil Co. v. Root Rfg. Co., 328 U.S. 575 (1946)..
8
Valley Forge College v. Americans United, 454 U.S. 464
(1982)..............................................................................
i
Rules
Rule 59(e)..................................
Rule 60(b)(4).............................

1
passim

Treatises
9 J. Wigmore, Evidence § 2588
4,6
Restatement (Second) of Judgments § 70 cmt. b (1982)..... 8
Constitutional Provisions
Article III

passim

v

V.

PETITION FOR WRIT OF CERTIORARI

Roger Dean Waldner petitions the Court for a writ of
certiorari to review the judgment of the United States Court
of Appeals for the Eighth Circuit, Case 19-2813.
VI.

OPINIONS BELOW

The Panel denial of Roger’s first appeal, Case 17-3685,
of the district court’s judgment, Case 17-cv-01851, is
unpublished and included at Appendix A (“App.”). The denial
of petition for rehearing en banc is included in App. B. The
opinion of the district court is unpublished and is included in
App. C.
The Panel denial of the corporate defendants’ related
appeal, Case 17-3702, of the district court’s judgment, Case
0:17-cv-01851, is unpublished and included at App. D. The
denial of petition for rehearing en banc is included in App. E.
The opinion of the district court is unpublished and is
included in App. C.
The Panel denial of Roger’s appeal, Case 19-2813, of
the district court’s denial of his Rule 60(b)(4) motion, Case
17-cv-01851, is unpublished and included in App. F. The
denial of petition for rehearing en banc is included in App.
G. The district court’s Order of denial is unpublished and is
included in App. H.
The district court denial of related case 18-cv-976 is
unpublished and appears in the denial of his Rule 60(b)(4)
Motion. App. I. The denial of his Rule 59(e) motion is
unpublished and appears in App. J.
VII.

JURISDICTION

Roger seeks review of the Eighth Circuit’s denial of his
appeal, Case number 19-2813, issued on December 2, 2019,
1

App. F. His timely petition for rehearing was denied on
January 7, 2020. App. G. This petition is timely filed
pursuant to Supreme Court Rule 13.3, as modified by
miscellaneous Order of this Court dated 3/19/2020. This
Court has jurisdiction under 28 U.S.C. § 1254(1). Order at
https://www.sunremecourt.gov/orders/courtorders/031920zr
dlo3.pdf
VIII. CONSTITUTIONAL AND STATUTORY
PROVISIONS
The Cases and Controversies Clause of the United
States Constitution, Art. Ill, § 2, cl. 1, provides in part:
The judicial Power shall extend to all Cases ... to
Controversies ...
Federal Rule of Civil Procedure 60(b) provides in part:
On motion and just terms, the court may relieve a
party or its legal representative from a final
judgment, order, or proceeding for the following
reasons: ... (4) the judgment is void.
IX.

STATEMENT OF THE CASE
a. Background

The Hartke Plaintiffs sued Roger and the corporate
defendants to void enforcement of notes and mortgages that
encumbered their property in Minnesota. They described
their success in their enforcement proceedings before the
Honorable Nancy E. Brasel: “In 2017, the Hartkes obtained
a declaratory judgment from Senior Judge Magnuson of the
Minnesota Federal Court holding that certain notes and
certain mortgages on properties located in Martin County,
Watonwan County, and Cottonwood County are void and
unenforceable due to the running of the statutes of
2

limitation.” App N at 60. “App. N at 60” refers to Appendix
N herein, at page 60.
In his judgment for the Hartkes, Judge Magnuson
summarized the case: “The only real issue here is whether
the relevant statutes of limitations bar Defendants from
taking any action to enforce the notes.” App. C at 22.
Defendant Community Bank’s Motion to be dismissed
from the case was granted. App. C at 22.
Petitioner Roger and the Corporate Defendants
appealed to the Eighth Circuit. Their appeals and rehearing
petitions were denied. App. A, B, D, E.
During these appeals, the Hartke Plaintiffs sought to
enforce the judgment in Minnesota state court. Roger and
the Corporate Defendants removed the state court case into
the federal district court for the district of Minnesota. The
case was assigned to Judge Brasel, 18-cv-00976-NEB-BRT.
It was denied, App. I, as was Roger’s Rule 59(e) Motion, App.
J. No appeals of Judge Brasel’s decisions were made.
b. Hartkes’ Judicial Admissions.
On April 1, 2019, after appeals and rehearings had
been completed, the Hartkes filed their Memorandum In
Opposition To Defendant Waldner’s Motion For Stay, in the
related case before Judge Brasel. App. K. They stated:
“Hartkes’ motion to enforce the judgment is a motion to clear
the Hartkes’ land title of void mortgages and related real
estate filings. Defendant Waldner has no property interest
in any of the real estate that is the subject of the motion and
has no standing to object to the enforcement of the judgment.
He also has no interest in the defendant corporations.” App.
K at 46. (italics and shaded highlight added).
Roger included the latter statement in his appellate
brief to the Eighth Circuit. App. L at 50.________________ _
____The Hartkes identified the owners of the notes and
'mortgages as the corporations, not Roger: “The notes and
mortgages originated in 2002 and were between the Hartkes
and ‘The One Stop’. . . .The mortgages were subsequently
3

assigned to Defendants WIPT, Inc. and RDW-KILT, Inc.”
App. 0 at 62. Roger had no “personal stake” in the notes:
“Roger Waldner ... is not a party to any of the notes, nor
does he claim an interest in any of the mortgaged
properties.” App. O at 63.
The Hartkes’ statements are judicial admissions of
the truth of the facts alleged. Standard Fire Ins. Co. v.
Knowles, 568 U.S. 588, 592 (2013) (“See 9 J. Wigmore,
Evidence § 2588, p. 821 (J. Chadbourn rev. 1981) (defining a
“judicial admission or stipulation” as an “express waiver
made ... by the party or his attorney conceding for the
purposes of the trial the truth of some alleged fact”
(emphasis deleted));... 9 Wigmore, supra, § 2590, at 822
(the “vital feature” of a judicial admission is “universally
conceded to be its conclusiveness upon the party making
it”).”).

The Hartkes’ judicial admissions are similar to the
Solicitor General’s “confession of error.” Justice Scalia
described the Court’s GVR practice in such instances: “Our
recent practice, however, has been to remand in light of the
confession of error without determining the merits, leaving
it to the lower court to decide if the confession is correct.”
Lawrence v. Chater, 516 U.S. 163, 183 (1996) (Scalia, J.,
dissenting). The per curiam opinion noted that “the dissent
acknowledges as ‘well entrenched,’ post, at 183 (opinion of
SCALIA, J.), our practice of GVR’ing in light of plausible
confessions of error without determining their merits.” Id. at
171.
Ill

III

III

4

X.

REASONS FOR GRANTING THE WRIT

A. A GVR Order, without determining the merits,
may be appropriate, leaving it to the lower court
to decide if the Hartkes’ judicial admissions
warrant dismissal of the judgment as void.
1. Hartkes and their Counsel deceived the lower courts.
The Hartkes’ judicial admission that Roger was not a
party to the notes and mortgages was made only after the
judgment was affirmed on appeal and is an admission that
no Article III case or controversy existed between them and
Roger over the notes or mortgages. Yet, before judgment was
affirmed, the Hartkes deceived the lower courts into
believing that a case or controversy did in fact exist. They
can’t have it both ways. Either a controversy existed or it
didn’t. Which is true?
Prior to judgment, the Hartkes and their Counsel led
Judge Magnuson to believe that Roger “controlled” the
corporate defendants. See Judgment, App. C at 21 (“Over the
next several years, Waldner-controlled entities such as The
One Stop and Defendant WIPT . . . The November note was
eventually assigned to Defendant RDW-KILT, another
Waldner - controlle d comp any
i
Yet, after judgment and appeal, they reversed their
litigating position: “He also has no interest in the defendant
corporations.” Hartke Memorandum, App. K at 46.
How can this Court (or any court) affirm a judgment
based on contradictory jurisdictional facts?
Judge Magnuson granted judgment on the Hartkes’
pleadings without the discovery requested by Roger. App. C
at 24 (“Plaintiffs’ Motion for Judgment on the Pleadings
(Docket Nos. 47, 49) is GRANTED”).
The courts below had no opportunity to consider the
jurisdictional deceit perpetrated on them by the Hartkes’
pleadings before the judgment had been affirmed on appeal
because discovery was not permitted and no opportunity for
r

5

••

jurisdictional discovery was allowed even after the Hartkes
made their judicial admissions.
Diametrically opposite jurisdictional facts cannot both
be truthful. The courts below were necessarily deceived by
one set of facts.
2. OVR is appropriate, because the Hartkes’ judicial
admissions were not fully considered below.
This Court has noted that, “[wjhere intervening
developments, or recent developments that we have reason
to believe the court below did not fully consider, reveal a
reasonable probability that the decision below rests upon a
premise that the lower court would reject if given the
opportunity for further consideration, and where it appears
that such a redetermination may determine the ultimate
outcome of the litigation, a GVR order is, we believe,
potentially appropriate.” Lawrence, 516 U.S. at 167.
The Eighth Circuit Panel decision did not include a
word about the Hartkes’ judicial admissions that Roger had
no interest in the notes, the mortgages, the Hartkes’ real
estate, or in the corporate defendants, and had “no standing
to object to the enforcement of the judgment.” App. K at 46
(italics added).
If this Court issues a GVR Order, in light of the
Hartkes’ judicial admissions, Roger submits that there is “a
reasonable probability that giving the lower court the
opportunity to consider that point anew will alter the result.”
Lawrence, 516 U.S. at 171-72.
3. The Hartkes’ jurisdictional fraud undermined the very
legitimacy of the judgment.
This Court has observed that the interest in the
finality of judgments is undermined in “cases of fraud upon
the court calling into question the very legitimacy of the
judgment.” See Calderon v. Thompson, 523 U.S. 538, 557
(1998) (citing Hazel-Atlas Co. v. Hartford Co., 322 U.S. 238
6

(1944) (discussing “the historic power of equity to set aside
fraudulently begotten judgments” and canvassing cases and
treatises and vacating a judgment entered nine years
earlier), overruled on other grounds by Standard Oil Co. of
Cal. v. United States, 429 U.S. 17, 18 (1976)).
Here, the lower courts relied upon the truthfulness of
the initial set of jurisdictional facts presented to them by the
Hartkes. However, their post-judgment judicial admissions,
if true, are conclusive evidence that they committed fraud
and deceit in their pre-judgment jurisdictional facts.
Standard Fire Ins., 568 U.S. at 592 (“9 Wigmore, supra, §
2590, at 822 (the “vital feature” of a judicial admission is
“universally conceded to be its conclusiveness upon the party
making it”)”) (emphasis in original).
The Hartke Complaint identified WIPT as the owner
of one of the notes and alleged that WIPT made the
December 2016 demand for payment. Judge Magnuson
paraphrased these two facts in his judgment of 11/28/2017:
“In late December 2016, WIPT notified the Hartkes
that it had acquired the July note and mortgage from
Community Bank, and demanded payment from the
Hartkes for $1.5 million that WIPT had ostensibly
paid on the note. (Id. 53.).” Judge Magnuson’s
Judgment, App. C at 21-22 (citing f 53 of the Hartkes’
Complaint).
Yet, in their Appellees’ brief to the Eighth Circuit, the
Hartkes changed their litigating position and stated that
“the payment demand was made by Waldner’s December
letter.” (Emphasis added). App. M at 58.
Hartkes’ complaint for declaratory judgment recites in
sufficient factual detail an actual and legal controversy
between parties, and when the controversy became
justiciable, in late December 2016. The threat of injury
to Hartkes became imminent, and the controversy
became justiciable after the demand for payment on the
note was made.
Because of standing, ripeness and justiciability issues,
the declaratory judgment claim did not exist and was not
7

“owned” by the Hartkes until after the payment demand
was made by Waldner’s December letter.
App. M at page 58. The Hartkes continued:
Hartkes did not have a declaratory claim of sufficient
immediacy and reality to warrant the issuance of a
declaratory judgment until they received Waldner’s
demand for payment.
App. M at 59.
In their enforcement proceedings, the Hartkes
reversed position 100% in judicial admissions before Judge
Brasel but did so only after the judgment had been affirmed
on appeal. See App. K at 44-48.
Roger brought these facts to the attention of the
Eighth Circuit Panel and summarized the issue: “to ensnare
Waldner in their web of deceit the Plaintiffs were compelled
ito manufacture deliberately false jurisdictional facts before
this Court, as well.” App. L at 49-50.
4. A GVR Order is appropriate because the very temple of
justice has been defiled.
Fraud on the court has been recognized for centuries
as a basis for setting aside a final judgment, sometimes even
years after it was entered. Hazel-Atlas, 322 U.S. at 245.
It is, of course, true that “in most instances society is
best served by putting an end to litigation after a case has
been tried and judgment entered.” Id. at 244. For this reason,
a final judgment, once entered, normally is not subject to
challenge. However, the policy of repose yields when “the
court finds after a proper hearing that fraud has been
practiced upon it, or the very temple of justice has been
defiled.” Universal Oil Co. v. RootRfg. Co., 328 U.S. 575, 580
(1946). “[A] case of fraud upon the court [calls] into question
the very legitimacy of the judgment.” Calderon v. Thompson,
523 U.S. 538, 557 (1998). One treatise states the issue as
follows: “[w]hen a judgment is shown to have been procured”
by fraud upon the court, “no worthwhile interest is served in
protecting the judgment.” Restatement (Second) of
8

Judgments § 70 cmt. b (1982).
Here, the deceit by the Hartkes and their Counsel is
spread out on the pages before two district courts and the
Eighth Circuit. Roger challenges only the judgment as to
him. The Hartkes knew that they could obtain a judgment
against Roger only if they manufactured false jurisdictional
facts against him. They admit that he had no interest in the
notes and mortgages encumbering their property.
The Hartkes and their Counsel essentially revealed,
perhaps inadvertently, the deceit they practiced on all three
courts by their judicial admissions before Judge Brasel.
Roger’s statement to the Eighth Circuit may prove to
have been correct: “to ensnare Waldner in their web of deceit
the Plaintiffs were compelled to manufacture deliberately
false jurisdictional facts before this Court, as well.” App. L
at 49-50.
B. The Hartkes’ pre-judgment deceit is revealed by
their post-appeal judicial admissions.
If the Hartkes’ judicial admissions are truthful, then
they are conclusive against them. There was no controversy
between them and Roger on the notes and mortgages, and
they had no Article III standing to bring their action against
him. The courts were lulled by the Hartkes’ deceit into
exercising Article III “judicial power” over a non-controversy.
Hartkes’ judicial admissions are laid bare in their
pleadings clearly and convincingly. Yet, the courts below had
no way of telling from the immediate record before them that
the Hartkes had manufactured false jurisdictional facts. No
discovery was had. The courts were compelled to rule on the
pre-judgment false facts pled by the Hartkes.
Only after the judgment was affirmed on appeal did
the Hartkes plead Roger’s lack of a “personal stake” in the
case. Without a defendant’s “personal stake” in a dispute, no
Article III case or controversy exists for a plaintiff to bring
suit. Chief Justice Roberts explained the concept recently.
“A case or controversy exists when both the plaintiff
9

and the defendant have a ‘personal stake’ in the lawsuit.
Camreta v. Greene, 563 U.S. 692, 701 (2011). A plaintiff
demonstrates a personal stake by establishing standing to
sue, which requires a ‘personal injury fairly traceable to the
defendant’s allegedly unlawful conduct and likely to be
redressed by the requested relief.’ Allen, 468 U.S., at 751.
[quoting Allen v. Wright, 468 U.S. 737 (1984)]. A defendant
demonstrates a personal stake through ‘an ongoing interest
in the dispute.’ Camreta, 563 U.S., at 701, 131 S.Ct. 2020.”
Campbell-Ewald Co. v. Gomez, 136 S. Ct. 663, 678-79 (2016).
(Roberts, C. J., dissenting).
The Hartkes’ judicial admissions describe facts that
conclusively show that Roger lacked a “personal stake” in the
case below:
• “Defendant Waldner has no property interest in any
of the real estate that is the subject of the motion.”
App. K at 46.
• He “has no standing to object to the enforcement of the
judgment.” Id.
• “He also has no interest in the defendant
corporations.” Id.
• “Defendant Waldner’s lower court claims, his appeal,
and any possible issue to be raised on certiorari has
no relevance to the enforcement of judgment intended
to relieve the Hartkes’ property of the burden of the
void mortgages.” Id.__________________________ __
• Waldner “does not have, and has never had, an
interest in the properties nor was he a party to the;
notes.” App. N at 61.
i_______________
• “Roger Waldner is not an attorney, he is not a party to
any of the notes, nor does he claim an interest in any
jof the mortgaged properties.” App. O at 63.
C. The Hartkes lulled the district court into a clear
usurpation of Article III “judicial power” that
rendered its judgment void against Roger.
The Hartkes described the purpose of their lawsuit:
10

“Hartkes were seeking a declaration that certain mortgages
on property primarily located in Martin County, but also
parcels located in Cottonwood and Watonwan counties, all in
Minnesota, were unenforceable based on statutes of
limitation. Hartkes also sought judgment voiding the notes
and assignments accompanying those mortgages.” App. 0 at
62.

Their post-judgment judicial admissions conclusively
show that Roger had no “personal stake” in the lawsuit. They
lulled the court unwittingly into exercising Article III
“judicial power” over a non-controversy, a violation of the
case-or-controversy requirement of Article III.
“‘This case-or-controversy requirement subsists
through all stages of federal judicial proceedings, trial and
appellate. . . . The parties must continue to have a ‘personal
stake in the outcome’ of the lawsuit.’ Lewis v. Continental
Bank Corp., 494 U.S. 472, 477-478 (1990). See also Preiser v.
Newkirk, 422 U.S. 395, 401 (1975). This means that,
throughout the litigation, the plaintiff ‘must have suffered,
or be threatened with, an actual injury traceable to the
defendant and likely to be redressed by a favorable judicial
decision.”' Spencer v. Kemna, 523 U.S. 1, 7 (1998) (quoting
Lewis, supra, at 477).
The Hartkes’ judicial admissions show that they did
not suffer an actual injury traceable to Roger that could be
redressed by a favorable decision for them against him. No
case or controversy existed between them and Roger as to
the notes on their mortgaged properties.
“If a dispute is not a proper case or controversy, the
courts have no business deciding it, or expounding the law in
the course of doing so.” DaimlerChrysler Corp. v. Cuno, 547
U.S. 332, 341 (2006). “No principle is more fundamental to
the judiciary’s proper role in our system of government than
the constitutional limitation of federal-court jurisdiction to
actual cases or controversies.” Simon v. Eastern Kentucky
Welfare Rights Organization, 426ILS. 26, 37 (1976). ____
____ Roger submits that the Hartkes’ post-appeal judicial
admissions prove conclusively: 1) that their pre-judgment
11

jurisdictional facts deceived the district court into exercising
Article III “judicial power” over a non-case and non­
controversy; 2) that the district court’s exercise was an
unknowing usurpation of judicial power from the onset of the
case; 3) its exercise was a fundamental infirmity that so
affected the case that Roger could raise the infirmity to the
courts even after the judgment had become final; 4) no
“arguable basis” existed for jurisdiction by the court; and 5)
the jurisdictional error is one of those “rare instances of a
clear usurpation of power [that] will render a judgment
void.” United Student Aid Funds v. Espinosa, 559 U.S. 260,
271 (2010) (citation and quote marks omitted) (alteration in
brackets added).
XI.

CONCLUSION

WHEREFORE, for the reasons cited and for such
other reasons as seem appropriate, Petitioner Roger
respectfully asks this Court to issue a GVR Order and to
remand in light of the judicial admissions by the Hartkes
and their Counsel, without determining the merits, leaving
it to the Eighth Circuit to decide if the judicial admissions
warrant dismissal of the judgment against Roger as void.

Respectfully submitted,

Dated: October 29, 2020

Roger Dean Waldner
Petitioner, pro se
P.O. Box 485
Redfield, SD 57469
Phone: 605-472-3135

12

XII.

APPENDIX - TABLE OF CONTENTS

APPENDIX A: Judgment Affirmed (Roger), Appellate
Case: 17-3685 Date Filed: 01/17/2019 Entry ID: 4746804.15
APPENDIX B: Judgment Affirmed (WIPT et al.),
Appellate Case: 17-3702 Date Filed: 01/17/2019 Entry ID:
4746851................................................................................. 17
APPENDIX C: Memorandum and Order, CASE 0:17-cv01851-PAM-BRT Document 114 Filed 11/29/17................. 19
APPENDIX D: Order (rehearing denied - Roger),
Appellate Case: 17-3685 Date Filed: 03/05/2019 Entry ID:
4762904................................................................................. 26
APPENDIX E: Order (rehearing denied - WIPT et al.),
Appellate Case: 17-3702 Date Filed: 02/25/2019 Entry ID:
4759427................................................................................. 27
APPENDIX F: Judgment, Appellate Case: 19-2813 Date
Filed: 12/02/2019 Entry ID: 4857284.................................. 28
APPENDIX G: Order (rehearing denied), Appellate Case:
19-2813 Date Filed: 01/07/2020 Entry ID: 4868386....... 29
APPENDIX H: Order, CASE 0:17-cv-01851-PAM-BRT
Document 135 Filed 07/22/19........................................... 30
APPENDIX I: Order on Motions, CASE 0:18-cv-00976NEB-BRT Document 41 Filed 10/01/19........................... 32
APPENDIX J: Order on Motions to Alter or Amend
Judgment, CASE 0:18-cv-00976-NEB-BRT Document 59
40
Filed 12/12/19
APPENDIX K: Memorandum in Opposition to Defendant
Waldner’s Motion for Stay, CASE 0:18-cv-00976-NEB-BRT
45
Document 18 Filed 04/01/19
APPENDIX L: Appellant’s Brief, Appellate Case: 19-2813
50
Date Filed: 11/06/2019 Entry ID: 4849546 (partial)
APPENDIX M: Brief of Appellees, Appellate Case: 17-3685
58
Date Filed: 02/22/2018 Entry ID: 4632638 (partial)....
APPENDIX N: Memorandum in Support of Hartkes’
Motion for further Relief under 28 U.S.C. §2202 and

13

Minnesota Statutes §555.08, CASE 0:18-cv-00976-NEBBRT Document 12 Filed 03/28/19 (pp. 1-2)......................... 61
APPENDIX O: Memorandum in Support of Hartkes’
Motion for further Relief under 28 U.S.C. §2202 and
Minnesota Statutes §555.08, CASE 0:18-cv-00976-NEBBRT Document 12 Filed 03/28/19 (pp. 1, 5)........................ 63

14

APPENDIX A: Judgment Affirmed (Roger), Appellate Case:
17-3685 Date Filed: 01/17/2019 Entry ID: 4746804
United States Court of Appeals
For the Eighth Circuit
No. 17-3685
Bradley R. Hartke; Douglas P. Hartke; Joan L. Hartke,
individually and as Trustees of the Joan L. Hartke QTIP
Marital Trust dated 7/12/1996 and as Trustees of the Robert
Eugene Hartke Family Trust dated 7/12/1996; The Joan L.
Hartke QTIP Marital Trust dated 7/12/1996; The Robert
Eugene Hartke Family Trust dated 7/12/1996
Plaintiffs - Appellees
v.
WIPT, Inc.
Defendant
Roger Dean Waldner
Defendant - Appellant
The One Stop, Inc.; RDW-KILT, Inc.; Community Bank
Defendants
Appeal from United States District Court
for the District of Minnesota - Minneapolis
Submitted: October 17, 2018
Filed: January 17, 2019
[Unpublished]
Before SHEPHERD, KELLY, and STRAS, Circuit Judges.
PER CURIAM.
Bradley R. Hartke, Douglas P. Hartke, and Joan L.
Hartke, individually and as trustees of Hartke-related trusts
(collectively, Hartkes) filed an action in the United States
District Court seeking a declaration that promissory notes
they executed to entities owned by Roger Dean Waldner were
unenforceable. Waldner counterclaimed, seeking recovery on
the notes. All parties moved for judgment on the pleadings.
The district court2 denied Waldner’s motion for judgment on
2 The Honorable Paul A. Magnuson, United States
15

the pleadings and granted the Hartkes’ motion for judgment
on the pleadings. Waldner appeals.3 We have jurisdiction, 28
U.S.C. § 1291, and review de novo the district court’s entry
of judgment on the pleadings, Schnuck Markets. Inc, v. First
Data Merchant Services Corn.. 852 F.3d 732, 737 (8th Cir.
2017), and its interpretation and application of state law,
Nolles v. State Committee for Reorganization of School
Districts. 524 F.3d 892, 901 (8th Cir. 2008). Having carefully
reviewed the parties’ briefs, the record, and the applicable
legal principles, we find no reversible error in the district
court’s disposition of this matter. Accordingly, we affirm the
judgment of the district court. See 8th Cir. R. 47B.

District Judge for the District of Minnesota.
3A separate appeal was filed by Waldner-owned entities in
No. 17-3702.
-2-

16

APPENDIX B: Judgment Affirmed (WIPT et al.), Appellate
Case: 17-3702 Date Filed: 01/17/2019 Entry ID: 4746851
United States Court of Appeals
For the Eighth Circuit
No. 17-3702

Bradley R. Hartke; Douglas P. Hartke; Joan L. Hartke,
individually and as Trustees of the Joan L. Hartke QTIP
Marital Trust dated 7/12/1996 and as Trustees of the Robert
Eugene Hartke Family Trust dated 7/12/1996; The Joan L.
Hartke QTIP Marital Trust dated 7/12/1996; The Robert
Eugene Hartke Family Trust dated 7/12/1996
Plaintiffs - Appellees
v.
WIPT, Inc.
Defendant - Appellant
Roger Dean Waldner
Defendant
The One Stop, Inc.; RDW-KILT, Inc.
Defendants - Appellants
Community Bank
Defendant
Appeal from United States District Court
for the District of Minnesota - Minneapolis
Submitted: October 17, 2018
Filed: January 17, 2018
[Unpublished]
Before SHEPHERD, KELLY, and STRAS, Circuit Judges.
PER CURIAM.
Bradley R. Hartke, Douglas P. Hartke, and Joan L.
Hartke, individually and as trustees of Hartke-related trusts
17

(collectively, Hartkes) filed an action in the United States
District Court seeking a declaration that promissory notes
they executed to entities owned by Roger Dean Waldner were
unenforceable. The Women’s Investment Property Trust,
Inc. (WIPT), The One Stop, Inc., and RDW-KILT, Inc.
(collectively, Appellants)—counterclaimed, seeking recovery
on the notes. All parties moved for judgment on the
pleadings. The district court4 denied Appellants’ motion for
judgment on the pleadings and granted the Hartkes’ motion
for judgment on the pleadings. This appeal followed.5 We
have jurisdiction, 28 U.S.C. § 1291, and review de novo the
district court’s entry of judgment on the pleadings, Schnuck
Markets. Inc, v. First Data Merchant Services Corn.. 852
F.3d 732, 737 (8th Cir. 2017), and its interpretation and
application of state law, Nolles v. State Committee for
Reorganization of School Districts. 524 F.3d 892, 901 (8th
Cir. 2008). Having carefully reviewed the parties’ briefs, the
record, and the applicable legal principles, we find no
reversible error in the district court’s disposition of this
matter. Accordingly, we affirm the judgment of the district
court. See 8th Cir. R. 47B.

4The Honorable Paul A. Magnuson, United States
District Judge for the District of Minnesota.
5Waldner filed a separate, pro se appeal in No. 17-3685.
-2-

18

APPENDIX C: Memorandum and Order, CASE 0:17-cv01851-PAM-BRT Document 114 Filed 11/29/17
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Bradley R. Hartke, Douglas P. Hartke, Joan Hartke,
individually and as Trustees of the Joan L. Hartke QTIP
Marital Trust dated 7/12/1996 and as Trustees of the
Robert Eugene Hartke Family Trust dated 7/12/1996; the
Joan L. Hartke QTIP Marital Trust dated 7/12/1996; and
the Robert Eugene Hartke Family Trust dated 7/12/1996,
Plaintiffs,
v.
WIPT, Inc., Roger Dean Waldner, The One Stop, Inc.,
RDW-KILT, Inc., and Community Bank, Defendants.
Civ. No. 17-1851 (PAM/BRT)
MEMORANDUM AND ORDER
This matter is before the Court on the parties’ Motions
for Judgment on the Pleadings. For the following reasons,
Plaintiffs’ Motion for Judgment on the Pleadings is granted,
Defendant Community Bank’s Motion for Judgment on the
Pleadings is granted, and the remaining Defendants’ various
Motions are denied.6

BACKGROUND
The personal and corporate relationships underlying
this case are complex and opaque. For purposes of the
dispositive Motions, however, a complete understanding of
6 Plaintiffs moved for judgment on the pleadings or, in the
alternative, for summary judgment. Defendants Waldner,
WIPT, The One Stop, and RDW-KILT responded by moving
for a continuance under Fed. R. Civ. P. 56(d). Because the
Court concludes that judgment on the pleadings is
appropriate, the Motions for Continuance are denied.
19

the parties’ interactions is not necessary. The Court will thus
briefly describe the events giving rise to the litigation.
In July 2002, Plaintiffs Bradley Hartke, Douglas
Hartke, Joan Hartke, and the two Hartke family trusts
entered into a $900,000 note for the purchase of a trucking
business, Solace Transfer, from Defendant The One Stop,
Inc. (Larson Aff. (Docket No. 68) Ex. 2.
Defendant Community Bank, then known as State
Bank of Winslow-Warren, is an Illinois bank that provided
the financing to the Hartkes for the purchase of Solace.
(Compl. 17, 19-20.) Plaintiffs allege that Defendant Roger
Waldner, appearing in this matter pro se, was the owner of
The One Stop, which in turn owned Solace. (Id. 12.) The note
was secured in part with a mortgage on farmland and other
property the Hartkes owned in southwest Minnesota.
(Larson Aff. Ex. 3.)
Waldner had filed for bankruptcy protection for
Solace’s predecessor company, H&W Motor Express
Company, one month before the Hartkes’ purchase. (Compl.
16.) Waldner had purchased H&W and transferred all of its
assets to Solace, but Solace was in debt for more than $2
million, all secured with Community Bank-issued mortgages
either personally guaranteed by Waldner or secured with
various property Waldner and his associates owned. (Id. 17,
20.) The Hartkes contend that the $900,000 purchase price
for Solace represented the difference between Solace’s
indebtedness and the money Waldner had siphoned out of
H&W.
The terms of the note required “11 monthly payments
of $7,800 beginning 8-242002 and 1 balloon payment of
$887,894.68 on 7-24-2003.” (See Larson Aff Ex. 2 at 1.) 2
The notes and mortgages attached to the Larson
Affidavit are matters necessarily embraced by the pleadings
and thus may be considered on a motion for judgment on the
pleadings. Porous Media Corn, v. Pall Corn., 186 F.3d 1077,
1079 (8th Cir. 1999).
The Hartkes made two monthly payments on the note,
but they allege that Solace was in serious financial trouble
20

even before they agreed to purchase it and that it was never
a viable business. They thus made their last payment in
October 2002. (Compl. 21.) Over the next several years,
Waldner-controlled entities such as The One Stop and
Defendant WIPT (which stands for Women’s Investment
Property Trust) also made payments on the note, but after
October 2002, the note was not ever current.
In November 2002, the Hartkes signed another note,
in the amount of $500,000, in favor of The One Stop. (Larson
Aff. Ex. 4.) The note was secured with a mortgage on Plaintiff
Joan L. Hartke Marital Trust’s property. (Id. Exs. 4, 5.)
According to this note, the proceeds were to be used for
“business investment,” and were to be distributed in
multiple advances; the note leaves blank the amount of any
immediate advance. (Id. Ex. 4 at 1.) The Hartkes assert that
they did not receive any money from this note. (Compl. 48.)
They also contend that Waldner used the Hartkes’
personal residences as collateral for this note without their
consent. (Id. 47.) Waldner insists that the Hartkes knew
about the mortgaging of their residences. The November
note was eventually assigned to Defendant RDW-KILT,
another Waldner-controlled company. (Id. 49.)
The IRS began investigating Waldner in 2005, and in
2006 he was charged in federal court in Iowa with multiple
counts of making false statements in H&W’s bankruptcy
proceedings. He pled guilty to two counts in May 2007, and
received a 120-month sentence. United States v. Waldner.
564 F. Supp. 2d 911 (N.D. Iowa 2008). Waldner was released
from prison in late March 2017.
In 2007, after Waldner pled guilty but before he was
sentenced, RDW-KILT attempted to accelerate the
November note and mortgage. (Compl. 51.) The Hartkes
allege that they discovered at that time that their
homesteads were collateral for the mortgage, and they
disputed the acceleration because neither of their spouses
had signed the mortgage. (Id. 52.) A Minnesota state court
ordered that the mortgages on the homesteads were invalid,
and there was apparently no further action on the November
21

note and mortgage. (Id.)
In late December 2016, WIPT notified the Hartkes
that it had acquired the July note and mortgage from
Community Bank, and demanded payment from the Hartkes
for $1.5 million that WIPT had ostensibly paid on the note.
(Id. 53.) The Hartkes then brought this lawsuit, seeking
declarations that the July and November notes and
mortgages are unenforceable and that WIPT and the other
Defendants are barred by the statute of limitations from
attempting to collect on them.
DISCUSSION
The only real issue here is whether the relevant
statutes of limitations bar Defendants from taking any
action to enforce the notes. The notes went into default, at
the latest, in late 2002. There was no attempt to enforce the
July note until the end of 2016. The Complaint contains no
allegation regarding demands for payment on the November
note.
The July 2002 note provides that Illinois law governs
the note and mortgage.
There is no dispute that Community Bank no longer
has any interest in the note and mortgage it issued to
Plaintiffs. Plaintiffs ask for certain factual findings before
any dismissal of Community Bank from this action, but
those findings are not appropriate. There is no case or
controversy as to Community Bank, and its Motion will be
granted. (Larson Aff. Ex. 2 at 2; Ex. 3 24.)
The Illinois statute of limitations on promissory notes
is ten years “after the cause of action accrued.” 735 Ill. Comp.
Stat. 5/13-206. The November 2002 mortgage provides that
it is “governed by the laws of the jurisdiction in which Lender
is located.” (Larson Aff. Ex. 5 24.) The One Stop was the
lender on the November note; it is an Iowa corporation with
an address in Dubuque. The Iowa statute of limitations is
also ten years. Iowa Code § 614.1(5).
Because Defendants did not make any demand for
payment on the July 2002 note until December 29, 2016, the
statute of limitations bars them from seeking to enforce the
22

loan. Any demand on the November 2002 note would also be
time-barred.7
Defendants argue that an Illinois statute that
preserves counterclaims against statutes of limitations
applies here to render the notes enforceable. See 735 Ill.
Comp. Stat. 5/13-207. This statute saves counterclaims when
the plaintiffs initial cause of action accrued before the
counterclaim’s limitations period expired. See, e.g..
Barragan v. Casco Design Corn., 837 N.E.2d 16, 23-24 (Ill.
2005) (noting that § 13-207 applies when a plaintiff “owns”
the claim being countered before the counterclaim is timebarred). Thus, for example, if the statute of limitations for
breach of contract is 10 years but for a counterclaim
asserting unjust enrichment is only five years, a party
cannot prevent its opponent from bringing an unjustenrichment counterclaim by waiting until the sixth year
after the alleged breach to assert a claim for breach of
contract.
Here, by contrast, Plaintiffs could not have brought a
declaratory judgment claim before December 29, 2016, the
date Defendants made a demand under the July 2002 note.
By that date, however, any counterclaim Defendants might
have was untimely. Thus, Plaintiffs did not “own” their
declaratory-judgment claims before the limitations period on
Defendants’ counterclaims expired, and the < Illinois
7 Although a lack of payment demand might mean that a
request for a declaratory judgment with regard to a future
demand is not ripe, in the circumstances present here, and
especially given the representations in Defendants’
pleadings, it is likely that a demand for payment on the
November loan is sufficiently imminent to create a case or
controversy with respect to that loan. See Missourians for
Fiscal Accountability v. Klahr. 830 F.3d 789, 795 (8th Cir.
2016) (noting that a declaratory judgment plaintiff need only
show “adverse legal interests, of sufficient immediacy and
reality to warrant the issuance of a declaratory judgment”)
(quoting Golden v. Zwickler, 394 U.S. 103, 108 (1969)).
23

counterclaim-saving statute does not save Defendants’
counterclaims.
Finally, Defendants’ claim that judgment is
premature because they need time to conduct discovery is
without merit. The issues here are purely legal: whether the
statute of limitations bars Defendants from seeking payment
on these notes. The discovery Defendants claim to require is
discovery into whether Plaintiffs in fact received money
under either of the notes, and more information about the
“conspiracy” that Waldner alleges regarding the Hartkes
and Galley Smith. But none of those facts has any bearing
on the legal issue here, and the resolution of that issue is
clear. Defendants are time- barred from seeking payment on
these loans, and Plaintiffs are entitled to a declaratory
judgment to that effect.
CONCLUSION
Accordingly, IT IS HEREBY ORDERED that:
1. Defendant Waldner’s Motion for Judgment on the
Pleadings (Docket No. 33) is DENIED;
2. Defendants The One Stop, RDW-KILT, and
WIPT’s Motion for Judgment on the Pleadings (Docket No.
36) is DENIED;
3. Plaintiffs’ Motion for Judgment on the Pleadings
(Docket Nos. 47, 49) is GRANTED;
4. Defendant Community Bank’s Motion for
Judgment on the Pleadings (Docket No. 72) is GRANTED;
5. Defendant Waldner’s Motion for Continuance
(Docket No. 81) is DENIED;
6. Defendants The One Stop, RDW-KILT, and
WIPT’s Motion for Continuance (Docket No. 90) is
DENIED;
7. Plaintiffs’ Motions to Strike (Docket Nos. 98, 107)
are DENIED; and
8. The relevant statutes of limitations preclude
enforcement of the notes and mortgages at issue in this
litigation.
LET JUDGMENT BE ENTERED ACCORDINGLY.
Dated: November 28. 2017
24

s/Paul A. Masnuson
Paul A. Magnuson
United States District Court Judge

25

APPENDIX D: Order (rehearing denied - Roger),
Appellate Case: 17-3685 Date Filed: 03/05/2019 Entry ID:
4762904
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 17-3685
Bradley R. Hartke, et al.
Appellees
v.
WIPT, Inc.
Roger Dean Waldner
Appellant
The One Stop, Inc., et al.
Appeal from U.S. District Court for the District of
Minnesota - Minneapolis
(0:17-cv-01851-PAM)
ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
March 05, 2019
Order Entered at the Direction of the Court: Clerk, U.S.
_________ Court of Appeals, Eighth Circuit.__________
/s/ Michael E. Gans
Appellate Case: 17-3685 Page: 1 Date Filed: 03/05/2019
Entry ID: 4762904

26

APPENDIX E: Order (rehearing denied — WIPT et al.),
Appellate Case: 17-3702 Date Filed: 02/25/2019 Entry ID:
4759427
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 17-3702
Bradley R. Hartke, et al.
Appellees
v.
WIPT, Inc.
Appellant
Roger Dean Waldner
The One Stop, Inc. and RDW-KILT, Inc.
Appellants
Community Bank
Appeal from U.S. District Court for the District of
Minnesota - Minneapolis
(0:17-cv-01851 -PAM)
ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
February 25, 2019
Order Entered at the Direction of the Court:
Clerk. U.S. Court of Anneals. Eighth Circuit.
Isl Michael E. Gans
Appellate Case: 17-3702 Page: 1 Date Filed: 02/25/2019
Entry ID: 4759427

27

APPENDIX F: Judgment, Appellate Case: 19-2813 Date
Filed: 12/02/2019 Entry ID: 4857284
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2813

Bradley R. Hartke; Douglas P. Hartke; Joan L. Hartke,
individually and as Trustees of the Joan L. Hartke QTIP
Marital Trust dated 7/12/1996 and as Trustees of the Robert
Eugene Hartke Family Trust dated 7/12/1996; The Joan L.
Hartke QTIP Marital Trust dated 7/12/1996; The Robert
Eugene Hartke Family Trust dated 7/12/1996,
Plaintiffs - Appellees
v.
WIPT, Inc.
Defendant
Roger Dean Waldner
Defendant - Appellant
The One Stop, Inc.; RDW-KILT, Inc.; Community Bank
Defendants
Appeal from U.S. District Court for the District of
Minnesota
(0:17-cv-01851-PAM)
JUDGMENT
Before ERICKSON, GRASZ, and KOBES, Circuit Judges.
This court has reviewed the original file of the United
States District Court. It is ordered by the court that the
judgment of the district court is summarily affirmed. See
Eighth Circuit Rule 47A(a).
December 02, 2019
Order Entered at the Direction of the Court: Clerk, U.S.
Court of Appeals, Eighth Circuit.
Is/ Michael E. Gans
28

APPENDIX G: Order (rehearing denied), Appellate Case:
19-2813 Date Filed: 01/07/2020 Entry ID: 4868386
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2813
Bradley R. Hartke, et al.
Appellees
v.
WIPT, Inc.
Roger Dean Waldner
Appellant
The One Stop, Inc., et al.
Appeal from U.S. District Court for the District of
Minnesota
(0:17-cv-01851-PAM)
ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
January 07, 2020
Order Entered at the Direction of the Court: Clerk, U.S.
Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

29

APPENDIX H: Order, CASE 0:17-cv-01851-PAM-BRT
Document 135 Filed 07/22/19
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Bradley R. Hartke, Douglas P. Hartke,' Joan Hartke,
individually and as Trustees of the Joan L. Hartke QTIP
Marital Trust dated 7/12/1996 and as Trustees of the Robert
Eugene Hartke Family Trust dated 7/12/1996; the Joan L.
Hartke QTIP Marital Trust dated 7/12/1996; and the Robert
Eugene Hartke Family Trust dated 7/12/1996,
Plaintiffs,
v.
WIPT, Inc., Roger Dean Waldner, The One Stop, Inc., RDWKILT, Inc., and Community Bank, Defendants.
Civ. No. 17-1851 (PAM/BRT)
ORDER
This matter is before the Court on Defendant Roger
Dean Waldner’s Motion to Reopen and to Vacate Judgment.
Waldner contends that the Court lacked subject-matter
jurisdiction to entertain the parties’ dispute in the first
instance, and seeks to re-open the case and to vacate the
Court’s Judgment.
The Court granted Plaintiffs’ motion for judgment on
the pleadings in November 2017 and dismissed the case.
(Docket No. 114.) Defendants appealed, and the Eighth
Circuit Court of Appeals affirmed per curiam. (Docket Nos.
125, 126.) In the interim, Plaintiffs filed another lawsuit in
this District, seeking orders enforcing this Court’s judgment.
Hartke v. WIPT, Inc., No. 18-976 (NEB/BRT). In response,
Waldner filed a motion to vacate this Court’s Order and a
motion to alter or amend this Court’s judgment.
The Judge presiding over the second matter correctly
suggested to Waldner that any motion to amend or vacate
must be brought in the case in which the challenged order
30

was issued. The instant Motion to Reopen and to Vacate
followed.
Waldner now challenges the Court’s jurisdiction,
claiming that he never owned co-Defendant WIPT and that
the only challenged conduct in Plaintiffs’ pleadings was
WIPT’s conduct. He asks the Court to reopen the matter and
either dismiss it for lack of jurisdiction or permit
jurisdictional discovery.
But all of these requests come far too late. This case
has been closed for nearly two years. The Eighth Circuit
affirmed this Court’s decision in full. At the very least, res
judicata bars the relief Waldner seeks here. Waldner has
attempted to forestall judgment on the promissory notes at
issue for years. He has moved for continuances, he has
pursued meritless appeals, he has filed borderline frivolous
motions. His current claim regarding jurisdiction is yet
another attempt to distract the Court from his unscrupulous
conduct and put off the inevitable judgment against him. The
Motion is denied.
Accordingly, IT IS HEREBY ORDERED that
Defendant Waldner’s Motion to Reopen and Motion to
Vacate (Docket No. 132) is DENIED.
Dated: July 22, 2019
s/ Paul A. Magnuson
Paul A. Magnuson
United States District Court Judge

31

APPENDIX I: Order on Motions, CASE 0:18-cv-00976-NEBBRT Document 41 Filed 10/01/19
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA

BRADLEY R. HARTKE, individually
and as Trustee of the Joan L. Hartke Case No. 18-CVQTIP Marital Trust dated 7/12/1996
976 (NEB/BRT)
and as Trustee of the Robert Eugene
Hartke Family Trust, and DOUGLAS
P. HARTKE, individually and as
Trustee of the Joan L. Hartke QTIP
Marital Trust dated 7/12/1996 and as
Trustee of the Robert Eugene Hartke
Family Trust dated 7/12/1996, and
THE JOAN L. HARKTE QTIP
MARITAL TRUST DATED 7/12/1996,
ORDER ON
THE ROBERT EUGENE HARTKE
MOTIONS
FAMILY TRUST DATED 7/12/1996,
JOAN L. HARTKE, individually and
as Trustee of the Joan L. Hartke QTIP
Marital Trust dated 7/12/1996 and as
Trustee of the Robert Eugene
Hartke Family Trust dated 7/12/1996,
Plaintiffs,
v.
WIPT, INC., a South Dakota Corporation,
ROGER WALDNER, THE ONE STOP,
INC., a South Dakota Corporation,
and RDW-KILT, INC., a South Dakota
Corporation,
Defendants.
This matter is before the Court on Plaintiffs’ motion
to enforce judgment and for further relief [ECF No. 10] and
32

Defendants’ motions for relief from void judgment [ECF Nos.
25, 27] .8 For the reasons set forth below, Plaintiffs’ motion is
granted and Defendants’ motions are denied.

BACKGROUND
This case began as a Minnesota state court
enforcement action of a 2017 federal court judgment. See
Hartke v. WIPT, Inc., Civ. No. 17-1851 (PAM/BRT), 2017 WL
5897389 (D. Minn. Nov. 29, 2017), affd, 748 F. App’x 83 (8th
Cir. 2018), and aff’d, 748 F. App’x 97 (8th Cir. 2019) (the
“2017 Action”). Plaintiffs are the owners of multiple parcels
of real property in Martin, Watonwan, and Cottonwood
Counties. [See ECF No. 1-1.] The properties are subject to
mortgages filed by Defendants WIPT, Inc., The One Stop,
Inc., and RDW-KILT, Inc., and notices of lis pendens filed by
Defendant Roger Waldner. [See ECF Nos. 1-1, 1-2, 1-3.] For
the purposes of the motions before the Court, a complete
understanding of the complex personal and corporate
relationships between the parties is unnecessary. It is the
procedural history of both this case and the 2017 Action that
informs the resolution of the parties’ motions.
Procedural History
In the 2017 Action assigned to United States District
Court Judge Paul A. Magnuson, Plaintiffs obtained a
declaratory judgment that the mortgage notes and
mortgages on their properties are void and unenforceable
due to the running of statutes of limitation. Hartke, 2017 WL
5897389, at *3. “Defendants are time-barred from seeking
payments on these loans, and Plaintiffs are entitled to a
declaratory judgment to that effect.” Id. Thus, Judge
Magnuson ordered, “The relevant statutes of limitations
preclude enforcement of the notes and mortgages at issue in
this litigation.” Id. Defendants in the 2017 Action, which are
nearly identical to those here, appealed the judgment to the
8 Defendant Roger Waldner is representing himself
separately from the remaining Defendants. Defendant
Waldner’s motion [ECF No. 25] is almost identical to that of
the remaining Defendants [ECF No. 27].
33

Eighth Circuit, and the Eighth Circuit affirmed the district
court. Hartke, 748 F. App’x 83; Hartke, 748 F. App’x 97.
Defendants then petitioned the Eighth Circuit for rehearing
and were denied. Hartke, No. 17-3702 (8th Cir. Feb. 25,
2019); Hartke, No. 17-3685 (8th Cir. Mar. 5, 2019).
Armed with the federal judgment, Plaintiffs initiated
this enforcement action in Minnesota state court by filing a.
Petition for Further and Supplemental Relief. [ECF No. 1-1
(“Petition”).] The Petition seeks to (1) remove and discharge
the mortgages on the properties, (2) preclude any state court
action on any of the mortgages, and (3) the notices of lis
pendens. (Id.) Before answering the state-court action,
Defendants filed a notice of removal to this Court, asserting
diversity jurisdiction under 28 U.S.C. § 1332(a)(1). [ECF No.
1.] Defendants then filed an answer and counterclaim. [ECF
No. 4.] Now, Plaintiffs have moved this Court for
enforcement of the judgment and for further relief under
Minnesota Statutes § 555.08 and 28 U.S.C. § 2202.
Defendants have moved the Court to void the judgment in
the 2017 Action.
DISCUSSION
I. Subject-Matter Jurisdiction
As a preliminary matter, this Court must make
certain it has subject-matter jurisdiction. See 28 U.S.C. §
1447(c). Though the parties did not question subject-matter
jurisdiction for this action in their initial briefing, the Court
requested the parties to address the issue so that the Court
had all information necessary to determine jurisdiction. [See
ECF No. 24.]
Plaintiffs assert that Minnesota Statutes § 555.08 (as
well as 28 U.S.C. § 2202) authorizes this Court to grant relief
to enforce the declaratory judgment. [ECF No. 33.] Plaintiffs
also argue that there is complete diversity between the
parties and that the amount in controversy exceeds $75,000.
A word about the amount in controversy is warranted:
Where, as here, the underlying complaint does not specify an

34

exact amount of damages9, the removing party bears the
burden of proving by a preponderance of the evidence that
the amount in controversy exceeds the jurisdictional
minimum. See James Neff Kramper Family Farm P’ship v.
IBP, Inc., 393 F.3d 828, 831 (8th Cir. 2005). Other than in
the notice of removal, Defendants do not reference the
amount in controversy. But given the mortgage notes
attached to Plaintiffs’ Petition, [see ECF Nos. 1-2, 1-3], and
Plaintiffs’ contention that “[t]he value of the removing these
mortgages is worth significantly more than $75,000,” [ECF
No. 33 at 7], the Court concludes that diversity jurisdiction
exists.
For their part, Defendants do not challenge diversity
jurisdiction in this case—an unsurprising fact, since
Defendants were the removing party. As is the case with the
merits arguments, Defendants’ briefs on subject-matter
jurisdiction are aimed at the merits of the 2017 Action,
rather this action. [ECF Nos. 34, 35.] The Court addresses
Defendants’ attacks on jurisdiction over the 2017 Action
below. As to subject-matter jurisdiction in this action, the
Court concludes that it is proper.
II. Defendants’ Motions to Void the 2017
Judgment
Defendants make their motions under Federal Rules
of Civil Procedure 60(b)(4) (void judgment) and 60(b)(6) (any
other reason that justifies relief).10 Defendants argue that
9 The operative pleading is Plaintiffs’ Petition, not the
complaint filed in the 2017 Action.
10 Defendants appear to be under the mistaken
impression that this case and the 2017 Action are the same.
For example, Defendants assert that “[t]he case was initially
designated as Civil No. 17cv01851 PAM/BRT and
subsequently reassigned to this Court as Civil No. 18-cv-976
NEB/BRT.” [ECF No. 25 at 1, n.l; ECF No. 30 at 1, n.l; ECF
No. 31 at 1, n.l.] This assertion is erroneous. This new action
is just that—a new action, brought to enforce the 2017
judgment. Though this case is related to the 2017 Action,
35

the court in the 2017 Action lacked subject-matter
jurisdiction, and that the judgment is therefore void or
subject to equitable relief from this Court under Rules
60(b)(4) and 60(b)(6). Defendants make clear that they “do
not seek a re-hearing of their issues nor do they advance new
arguments. They are willing to stand on their previous
pleadings. They seek their first occasion for a full and fair
opportunity to litigate their counterclaims before this
Court.” [ECF No. 29 at 4 (emphasis in original); see ECF No.
25 at 6.]
As Defendants recognize, their arguments under
Rules 60(b)(4) and 60(b)(6) are subject to rigorous standards.
“A Rule 60(b)(4) motion to void the judgment for lack of
subject matter jurisdiction will succeed only ‘if the absence
of jurisdiction was so glaring as to constitute a ‘total want of
jurisdiction’ or a ‘plain usurpation of power’ so as to render
the judgment void from its inception.’" Hunter v. Underwood,
362 F.3d 468, 475 (8th Cir. 2004) (quoting Kocher v. Dow
Chem. Co., 132 F.3d 1225, 1230 (8th Cir. 1997)). Under Rule
60(b)(6), relief is available only where “exceptional
circumstances prevented the moving party from seeking
redress through the usual channels.” In re Zimmerman, 869
F.2d 1126, 1128 (8th Cir. 1989) (citations omitted). These
standards are in place to prevent collateral attacks, either of
district court judgments or judgments of the court of appeals:
“Just as a Rule 60(b) motion cannot be used to relitigate the
merits of a district court’s prior judgment in lieu of a timely
appeal, nor can it be used to collaterally attack a final court
of appeals’ ruling in lieu of a proper petition for review in the
United States Supreme Court.” In re SDDS, Inc., 225 F.3d
970, 972 (8th Cir. 2000), quoted in Streambend Properties II,
LLC v. Ivy Tower Minneapolis, LLC, No. 10- 4257 (JNE),
2017 WL 66381, at *2 (D. Minn. Jan. 6, 2017).
Defendants meet neither of these standards. Their
arguments under Rule 60(b) are a relitigation of the
arguments they made to Judge Magnuson and to the Eighth
they are not one and the same.
36

Circuit, where they were rejected. There is no plausible
argument that either court lacked subjectmatter
jurisdiction, and thus an order under Rule 60(b) would be
entirely inappropriate.
As Plaintiffs point out and Defendants must
recognize, Rule 60(b) would be Defendants’ only avenue for
relief, because Defendants’ request for relief from judgment
is otherwise barred by res judicata. Res judicata precludes
the same parties from relitigating issues that could have
been raised in a prior action. Lundquist v. Rice Mem’l Hosp.,
238 F.3d 975, 977 (8th Cir. 2001) (citing Federated Dep’t
Stores, Inc. v. Moitie, 452 U.S. 394 (1981)). In this case, res
judicata bars the reassertion of claims if three requirements
are met: “(1) the prior judgment was rendered by a court of
competent jurisdiction; (2) the decision was a final judgment
on the merits; and (3) the same cause of action and the same
parties or their privies were involved in both cases.” United
States v. Brekke, 97 F.3d 1043, 1047 (8th Cir. 1996). Causes
of action are the same if they involve claims that arise out of
the same nucleus of operative facts. See Lane v. Peterson, 899
F.2d 737, 742 (8th Cir. 1990) (adopting the definition in
Restatement (Second) of Judgments § 24 (1980)). Here, all
three elements are met. Thus, because the Rule 60 motions
fail and the requisite elements of res judicata are satisfied,
Defendants are barred from litigating issues that could have
been raised in the 2017 Action. Defendants’ motions are
denied.
III. Plaintiffs’ Motion to Enforce the Judgment
Plaintiffs’ motion to enforce the judgment is brought
under the Minnesota Declaratory Judgment Act, Minn. Stat.
§ 555.08. This statute provides that upon a grant of a
declaratory judgment, “[fjurther relief based on a
declaratory judgment or decree may be granted whenever
necessary or proper.” Minn. Stat. § 555.08. The statute does
not limit the relief that a court may grant. Similarly, the
Eighth Circuit has recognized that district courts have broad
power under 28 U.S.C. § 2202 to craft awards in declaratory
judgment actions to enforce a judgment. See Banclnsure, Inc.
37

V. BNC Nat. Bank, N.A., 263 F.3d 766, 772 (8th Cir. 2001).
The issues in this case have been litigated and the district
court judgment has been affirmed by the Eighth Circuit. The
mandates on the Defendants’ appeals have been issued. Fed.
R. App. P. 41(a) and (b); see Hartke, No. 173702 (8th Cir. Mar.
6, 2019); Hartke, No. 17-3685 (8* Cir. Mar. 13, 2019). Other
than the arguments about the legitimacy of the 2017
judgment, Defendants put forth no argument opposing
Plaintiffs’ motion. The additional relief Plaintiffs seek is
appropriate, flowing logically from the judgment granted in
the 2017 Action. Plaintiffs’ motion is therefore granted.
ORDER
Based on the foregoing and on all the files, records,
and proceedings herein, IT IS HEREBY ORDERED THAT:
1.
Defendant Roger Waldner’s Motion for Relief from
Void Judgment and for Any Other Reason that
Justifies Relief [ECF No. 25] is DENIED;
2.
Corporate Defendants’ Motion for Relief from Void
Judgment and for Any Other Reason that Justifies
Relief [ECF No. 27] is DENIED; and
3.
Plaintiffs’ Motion for Further Relief Under 28
U.S.C. § 2202 and Minnesota Statutes § 555.08
[ECF No. 10] is GRANTED, as follows:
i. Certified copies of this Order shall be recorded
in Martin County, Cottonwood County, and
Watonwan County pursuant to Minn. Stat. §§
507.40-507.403.
All
mortgages
and
Plaintiffs
assignments
between
and
Defendants that are the subject of the judgment
in Hartke v. WIPT, Inc., Civ.
No. 17-1851 (PAM/BRT) (D. Minn.), do not act
as a lien against any of the properties identified
in this litigation. [See ECF Nos. 1-1, 1-2, 1-3
(Petition and exhibits).] Any further
assignments of these mortgages or notes are
without effect.
38

ii. The lis pendens filed with the Martin,
Cottonwood, and Watonwan county recorders
on Plaintiffs’ properties identified in this
litigation shall be discharged.
iii. The notes that underlie the mortgages
identified in this litigation are declared null,
void, and unenforceable. All assignments and
security interests based on these notes or
mortgages are void.

LET JUDGMENT BE ENTERED ACCORDINGLY.
Dated: October 1, 2019

BY THE COURT:

s/Nancy E. Brasel
Nancy E. Brasel
United States District Judge

39

APPENDIX J: Order on Motions to Alter or Amend
Judgment, CASE 0:18-cv-00976-NEB-BRT Document 59
Filed 12/12/19
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA

BRADLEY
R.
HARTKE,
individually and as Trustee of the
Joan L. Hartke QTIP Marital Trust
dated 7/12/1996 and as Trustee of
the Robert Eugene Hartke Family
Trust, and DOUGLAS P. HARTKE,
individually and as Trustee of the
Joan L. Hartke QTIP Marital Trust
dated 7/12/1996 and as Trustee of
the Robert Eugene Hartke Family
Trust dated 7/12/1996, and THE
JOAN
L.
HARKTE
QTIP
MARITAL
TRUST
DATED
7/12/1996,
THE
ROBERT
EUGENE
HARTKE
FAMILY
TRUST DATED 7/12/1996, JOAN
L. HARTKE, individually and as
Trustee of the Joan L. Hartke QTIP
Marital Trust dated 7/12/1996 and
as Trustee of the Robert Eugene
Hartke
Family Trust
dated
7/12/1996,
Plaintiffs,
v.
40

Case No. 18-CV-976
(NEB/BRT)
ORDER ON
MOTIONS TO
ALTER OR
AMEND
JUDGMENT

WIPT, INC. a South Dakota Corporation, ROGER
WALDNER, THE ONE STOP, INC., a South Dakota
Corporation, and RDW-KILT, INC., a South Dakota
Corporation,
Defendants.
This matter is before the Court on motions to amend
or alter judgment filed by corporate defendants WIPT, Inc.,
The One Stop, Inc., and RDW-KILT, Inc. (together,
“Corporate Defendants”), and individual defendant Roger
Waldner.11 [ECF Nos. 45, 48.] For the reasons set forth
below, Defendants’ motions are denied.

BACKGROUND
This case began as a Minnesota state court
enforcement action of a 2017 federal court judgment. See
Hartke v. WIPT, Inc., Civ. No. 17-1851 (PAM/BRT), 2017 WL
5897389 (D. Minn. Nov. 29, 2017), aff’d, 748 F. App’x 83 (8th
Cir. 2018), and aff’d, 748 F. App’x 97 (8th Cir. 2019) (the
“2017 Action”). Plaintiffs are the owners of multiple parcels
of real property in Martin, Watonwan, and Cottonwood
Counties. [See ECF No. 1-1.] The properties are subject to
mortgages filed by the Corporate Defendants, and notices of
lis pendens filed by Waldner. [See ECF Nos. 1-1, 1-2, 1-3.]
In the 2017 Action assigned to United States District
Court Judge Paul A. Magnuson, Plaintiffs obtained a
declaratory judgment that the mortgage notes and
mortgages on their properties are void and unenforceable
due to the running of statutes of limitation. Hartke, 2017 WL
5897389, at *3. “Defendants are time-barred from seeking
payment on these loans, and Plaintiffs are entitled to a
declaratory judgment to that effect.” Id. Thus, Judge
Magnuson ordered, “The relevant statutes of limitations
preclude enforcement of the notes and mortgages at issue in
this litigation.” Id. Defendants in the 2017 Action, which are
nearly identical to those here, appealed the judgment to the
11 Defendant Roger Waldner is representing himself
separately from the remaining defendants.
41

Eighth Circuit, and the Eighth Circuit affirmed the district
court. Hartke, 748 F. App’x 83; Hartke, 748 F. App’x 97.
Defendants then petitioned the Eighth Circuit for rehearing
and were denied. Hartke, No. 17-3702 (8th Cir. Feb. 25,
2019); Hartke, No. 17-3685 (8th Cir. Mar. 5, 2019). Waldner
filed a motion to reopen and vacate the judgment in the 2017
Action, which Judge Magnuson denied on July 22, 2019.
Waldner then filed another appeal, appealing Judge
Magnuson’s denial and moving to stay the July 22 order. The
Eighth Circuit denied the motion for stay on September 6,
2019, and issued a summary affirmance on December 2,
2019. Hartke, No. 19-2813 (8th Cir. Dec. 2, 2019).
In this related case, Plaintiffs first filed an action in
Minnesota state court. [ECF No. 1-1 (“Petition”).] The
Petition sought to (1) remove and discharge the mortgages
on the properties, (2) preclude any state court action on any
of the mortgages, and (3) discharge the notices of lis pendens.
(Id.) Defendants filed a notice of removal to this Court,
asserting diversity jurisdiction under 28 U.S.C. § 1332(a)(1),
as well as an answer and counterclaim. [ECF Nos. 1, 4.]
Plaintiffs moved this Court for enforcement of the judgment
and for further relief under Minnesota Statute § 555.08 and
28 U.S.C. § 2202. The Court granted Plaintiffs’ motion on
October 1, 2019. [ECF No. 41.]
Defendants have now filed motions to alter or amend
the judgment, asserting the Court made manifest errors of
law.
DISCUSSION
Defendants request that the Court alter or amend the
judgment in their favor pursuant to Federal Rule of Civil
Procedure 59(e). “Rule 59(e) motions serve the limited
function of correcting ‘manifest errors of law or fact or to
present newly discovered evidence.’" United States v. Metro
St. Louis Sewer Dist., 440 F.3d 930, 933 (8th Cir. 2006)
(quoting Innovative Home Health Care v. P.T.-O.T. Assoc, of
the Black Hills, 141 F.3d 1284, 1286 (8th Cir. 1998)). “Such
motions cannot be used to introduce new evidence, tender
new legal theories, or raise arguments which could have
42

been offered or raised prior to entry of judgment.” Id.
(quoting Innovative Home Health Care, 141 F.3d at 1286).
Nor can Rule 59(e) be used to relitigate old matters. Exocon
Shipping Co. v. Baker, 554 U.S. 471, 485 n.5 (2008). Courts
have “broad discretion in determining whether to grant or
deny a motion to alter or amend judgment pursuant to Rule
59(e).” Metro St. Louis Sewer Dist., 440 F.3d at 933. Parties
are granted relief under Rule 59(e) only in “extraordinary”
circumstances. Dale & Selby Superette & Deli v. U.S. Dep’t
of Agric., 838 F. Supp. 1346, 1348 (D. Minn. 1993).
The Corporate Defendants argue that the Court made
manifest errors of law by failing to address their factual
attack on Plaintiffs’ standing and the Court’s jurisdiction to
entertain the parties’ dispute. They claim that jurisdictional
discovery would have supported their factual attack. They
also assert that res judicata does not apply because Plaintiffs
obtained the judgment in the 2017 Action by pleading false
jurisdictional allegations. [See ECF No. 47 at 7.] Similarly,
Waldner challenges Plaintiffs’ standing and the Court’s
jurisdiction based on a factual attack, repeatedly citing to his
memorandum and exhibits in support of his motion to reopen
the 2017 Action. [See ECF No. 50 at 3-4, see also id. at 6
(asserting that the court in the 2017 Action “abused its
discretion in denying Waldner the opportunity for limited
jurisdictional discovery”).] He also argues that res judicata
does not apply because Plaintiffs obtained the judgment in
the 2017 Action by pleading fraudulent allegations tracing
WIPT to Waldner. (See id. at 7-8, 21-24.)
Judge Magnuson rejected similar arguments in the
2017 Action, explaining:
Waldner now challenges the Court’s jurisdiction,
claiming that he never owned co-Defendant WIPT and
that the only challenged conduct in Plaintiffs’
pleadings was WIPT’s conduct. He asks the Court to
reopen the matter and either dismiss it for lack of
jurisdiction or permit jurisdictional discovery.
But all of these requests come far too late. This case
43

has been closed for nearly two years. The Eighth
Circuit affirmed this Court’s decision in full. At the
very least, res judicata bars the relief Waldner seeks
here. Waldner has attempted to forestall judgment on
the promissory notes at issue for years. He has moved
for continuances, he has pursued meritless appeals,
he has filed borderline frivolous motions. His current
claim regarding jurisdiction is yet another attempt to
distract the Court from his unscrupulous conduct and
put off the inevitable judgment against him.
(2017 Action, July 22, 2019 Order [ECF No. 135] at 2.)
The current motion before this Court follows exactly
the pattern Judge Magnuson described. Court does not find
that any manifest errors of law justify an amended
judgment, and Defendants do not present any new evidence.
Accordingly, the Motions are denied.
ORDER
Based on the foregoing and on all the files, records,
and proceedings herein, IT IS HEREBY ORDERED THAT:
Corporate Defendants’ Motion to Amend or Alter
Judgment [ECF No. 45] is DENIED; and
Defendant Roger Waldner’s Motion to Amend or
2.
Alter Judgment [ECF No. 48] is DENIED.
BY THE COURT:
Dated: December 12, 2019
1.

s/Nancy E. Brasel
Nancy E. Brasel
United States District Judge

44

APPENDIX K: Memorandum in Opposition to Defendant
Waldner’s Motion for Stay, CASE 0:18-cv-00976-NEB-BRT
Document 18 Filed 04/01/19.
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Bradley R. Hartke,
individually and as Trustee
of the Joan L. Hartke QTIP
Marital Trust dated
7/12/1996 and as Trustee of
the Robert Eugene Hartke
Family Trust, and Douglas
P. Hartke, individually and
as Trustee of the Joan L.
Hartke QTIP Marital Trust
dated 7/12/1996 and as
Trustee of the Robert
Eugene Hartke Family
Trust dated 7/12/1996, and
The Joan L. Hartke QTIP
Marital Trust dated
7/12/1996, the Robert
Eugene Hartke Family
Trust dated 7/12/1996, Joan
L. Hartke, individually and
as Trustee of the Joan L.
Hartke QTIP Marital Trust
dated 7/12/1996 and as
Trustee of the Robert
Eugene Hartke Family
Trust dated 7/12/1996,
Plaintiffs
vs.
WIPT, Inc., a South Dakota
Corporation, Roger Waldner,
The One Stop, Inc., a South

File Number 0:17-cv01851 -PAM-BRT

MEMORANDUM IN
OPPOSTION
TO DEFENDANT
WALDNER’S
MOTION FOR STAY

45

Dakota Corporation, and
RDW-KILT, Inc., a South
Dakota Corporation,
Defendants

Plaintiffs (the “Hartke Parties”), as and for their
Memorandum in Opposition to Defendant Waldner’s Motion
for Stay, state and allege the following:
ARGUMENT
Defendant Waldner has moved this Court for a stay
in the enforcement of the judgment entered by the U.S.
District Court for the District of Minnesota and affirmed by
the 8th Circuit. Hartkes oppose that motion.
THIS COURT DOES NOT HAVE THE
STATUTORYAUTHORITY
TO ISSUE A STAY
The judgment previously entered by the Court and
then affirmed by mandate of the appellate court is now the
law of the case. A stay in the enforcement of that judgment,
by Federal Statute, may only be granted by the 8th Circuit or
the U.S. Supreme Court. 28 U.S.C.A. § 2101(f).
The Federal District Courts lack the jurisdiction to
stay enforcement the mandate of the 8th Circuit pending an
application or decision of the Supreme Court for a writ of
certiorari. Deretich v. City of St. Francis, 650 F.Supp. 645
(D.MN. 1986); In re Stumes, 681 F.2d 524, 525 (8th
Cir.1982); Gander v. FMC Corp. 733 F.Supp. 1346,1347 (E.D
Mo 1990) (“The power of a district court to grant a stay of
judgment pending appeal terminates when the Court of
Appeals issues its mandate.”); Metavante Corp. v. Emigrant
Savings Bank; 2010 WL 3835121 E.D. WI. 2010 (“It is wholly
inappropriate for this court to stay the mandate of a higher
court pending review by the Supreme Court. . ..”)
Even if the Appellate Court or the Supreme Court
46

/

were to consider a stay of enforcement of judgment pending
appeal, Waldner must make the following showing: a
reasonable probability that four Justices would vote to grant
certiorari; a significant possibility that Supreme Court
would reverse judgment below; and a likelihood of
irreparable harm, assuming correctness of applicant’s
position, if judgment is not stayed. Packwood v. Senate Select
Committee on Ethics, 114 S.Ct. 1036, 510 U.S. 1319, 127
L.Ed.2d 530 (1994); Barnes v. E-Systems, Inc. Group Hosp.
Medical & Surgical Ins. Plan, 112 S.Ct. 1, 501 U.S. 1301,115
L.Ed.2d 1087 (1991). Defendant Waldner has made none of
these showings.
Hartkes’ motion to enforce the judgment is a motion
to clear the Hartkes’ land title of void mortgages and related
real estate filings. Defendant Waldner has no property
interest in any of the real estate that is the subject of the;
motion and has no standing to object to the enforcement of
jthe judgment. He also has no interest in the defendant;
Corporations. In his statement to Judge Magnuson on
November 17, 2017, Roger Waldner stated as follows:
“First of all, I do not own, nor have I held the stock
certificates of WIPT, Inc., a South Dakota corporation.
I’ve never held or owned the stock certificates for RDWKILT, Inc., which is a South Dakota corporation. I did
own the stock of the One Stop, Inc. back in the early
2000s, and I’m just not sure when that stock was
transferred because the attorney that handled the
transfer was Thomas A. Pokela. But I do not today own
any of those corporations’ stock, nor am I an officer of
those corporations.” Pro Se Statement of Roger Waldner.
(Transcript of Motion Hearing Nov. 17, 2017.p.l9) (See
CASE 0:17-cv-01851-PAM-BRT Document 113,119,120,
122, 123).
Defendant Waldner’s lower court claims, his appeal,
and any possible issue to be raised jon certiorari has no
relevance to the enforcement of judgment intended to relieve
the Hartkes’ property of the burden of the void mortgages.
Defendant Waldner’s only interest in a potential Writ of
47

Certiorari is in his counterclaim in the related case 17-cv1851. His statement of the sole “Issues on Appeal” to the 8th
Circuit was “Whether the District Court erred in finding that
the Illinois counterclaim -saving statute, 735 ILCS 5/13-207,
did not save Waldner’s counterclaims...” The counterclaims,
and any potential petition for writ of Certiorari by Waldner,
have nothing to do with the enforcement of the entered
judgment. Waldner’s Counterclaims were summarized in the
Hartkes’ 8th Circuit brief:
“Waldner filed a pro se First Amended Answer
and Second Amended Counterclaim. The counterclaims
alleged (1) a conspiracy between the Hartke brothers,
their mother, their wives and a person named “Galley
Smith” to take money from Waldner businesses (2)
unjust enrichment where money was wrongfully taken
from Waldner assets by “Galley Smith” to benefit the
Hartkes (3) another conspiracy involving a man named
“Rush” where the Hartkes borrowed funds from someone
and did not repay that source (4) punitive damages
deriving from the other claims and (5) breach of an
independent contractor agreement dating from 2002.
None of the Counterclaims were related to the Hartke
Declaratory Judgment Complaint.1 Waldner has
previously brought conspiracy and similar claims
against the Hartkes (and many others). See, for example,
Waldner v. North American Truck and Trailer, Inc, et al.,
Til F.R.D 401 (D. S.D. 2011); Waldner u. Boade, Hartke,
et.al, 2013 WL 3480964 (D. S.D. 2013). All his prior suits
have been dismissed.
Hartkes Plaintiffs-Appellees v Roger Dean Waldner
Defendant-Appellant BRIEF OF APPELLEES p.4 (8th Cir.
Appellate Case: 17-3685 -Date Filed: 02/22/2018 Entry ID:
4632638)
CONCLUSION
The Hartkes respectfully request this Court to recognize that
it has no jurisdiction to issue a stay, that a stay is not
otherwise warranted, and to deny Defendant Waldner’s
application.
48

Dated: April 1st, 2019
By: /s/David W. Larson
David W. Larson, # 60495
John Paul Martin, # 68068
332 Minnesota Street, Suite W2750
St. Paul, MN 55101

MARTIN & SQUIRES, P.A.
Telephone: (651) 767-3740
ATTORNEYS FOR PLAINTIFFS

49

APPENDIX L: Appellant’s Brief, Appellate Case: 19-2813
Date Filed: 11/06/2019 Entry ID: 4849546 (partial)
No. 19-2813
IN THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
Bradley R. Hartke, et al.
Appellees
v.
WIPT, Inc.
Roger Dean Waldner
Appellant
The One Stop, Inc., et al.
On Appeal from the United States District Court
for the District of Minnesota,
before
Honorable Paul A. Magnuson, District Judge,
Civil Case # 0:17-cv-01851-PAM-BRT
BRIEF OF APPELLANT ROGER DEAN WALDNER
Roger Dean Waldner, Pro Se
P.O. Box 485
Redfield, SD 57469
605-472-3135
RogerDWaldner63@gmail.com
[begin page 18]
The alleged “scheme to swindle” is a swindle of the
Plaintiffs’ own creation and has needlessly dragged this case
farther along than would have been the case if the Plaintiffs
would have filed a run-of-the-mill statute-of-limitations
claim without Waldner thrown in for good measure. In
addition, to ensnare Waldner in their web of deceit the'
50

Plaintiffs were compelled to manufacture deliberately false
jurisdictional facts before this Court, as well.
In their brief to the Eighth Circuit, ECF 4632638,
Plaintiffs falsely stated: “Because of standing, ripeness and
justiciability issues, the declaratory judgment claim did not
exist and was not ‘owned’ by the Hartkes until after the
payment demand was made bv Waldner’s December
letter.” (emphases added). The letter can be seen as
Plaintiffs’ Exhibit 7, included in ECF 64 at 50-52. Waldner’s
name is nowhere to be found on this letter.
Again, “Hartkes did not have a declaratory claim of
sufficient immediacy and reality to warrant the issuance of
a declaratory judgment until they received Waldner’s
demand for payment.” Id. at 16 (emphases added).
These statements are clear falsifications of documentary
evidence placed in the record by the Plaintiffs themselves.
Res Judicata does not apply where, as here, the
Plaintiffs obtained the judgment by pleading false
jurisdictional allegations. The record and discovery will
show that the Plaintiffs failed to establish Article III
standing needed to plead
18
[begin page 31]
Waldner.”) (underline and bold in original).
Yet, the district court summarily dismissed Waldner’s
facial challenge to its jurisdiction: “Waldner now
challenges the Court’s jurisdiction, claiming that he never
owned co-Defendant WIPT and that the only challenged
conduct in Plaintiffs’ pleadings was WIPT’s conduct.” ECF
135 at 2. The district court cannot be surprised by Waldner’s
claim that he never owned WIPT. In the related case, the
Plaintiffs stated the following:
Defendant Waldner has no property interest in any of the
real estate that is the subject of the motion and has no
standing to object to the enforcement of the judgment. He
[also has no interest in the defendant corporations. In his
statement to Judge Magnuson on November 17, 2017,
Roger Waldner stated as follows:
51

“First of all, I do not own, nor have I held the stock
certificates of WIPT, Inc., a South Dakota corporation.
I’ve never held or owned the stock certificates for RDWKILT, Inc., which is a South Dakota corporation. I did
own the stock of the One Stop, Inc. back in the early
2000s, and I’m just not sure when that stock was
transferred because the attorney that handled the
transfer was Thomas A. Pokela. But I do not today own
any of those corporations’ stock, nor am I an officer of
those corporations.” Pro Se Statement of Roger
Waldner. (Transcript of Motion Hearing Nov. 17,
2017.p.l9) (See CASE 0:17-cv-01851- PAM-BRT
Document 113, 119, 120, 122, 123).
Plaintiffs’ ECF(RC) 18 at 3 (docket for related Case No. 18cv-976 (NEB/BRT)).
The Plaintiffs themselves put Waldner outside the
four corners of this case. In that same related case, 18-cv976, the Plaintiffs stated that Waldner “does not have, and
has never had, an interest in the properties nor was he
a party to the notes.” ECF(RC) 12 at 2 (emphases added).
Again: “The notes and mortgages originated
31
in 2002 and were between the Hartkes and ‘The One Stop’.
They were governed by the 10-year statutes of limitation of
Illinois and Iowa. The mortgages were subsequently
assigned to Defendants WIPT, Inc. and RDW-KILT, Inc.” Id.
at 5. “Roger -Waldner is not an attorney, he is not a party to
any of the notes, nor does he claim an interest in any of the
mortgaged properties.” Id. at 5. “The Corporate Defendants’
litigation and appeal is relevant to the further relief that the
Hartkes are requesting; Roger Waldner’s litigation and
appeal is not.” Id. at 9.
The object of the Plaintiffs’ litigation was to secure a
judgment to invalidate the notes and mortgages, etc., that
encumber their property. They succeeded. Now, they seek to
enforce the judgment, but quite freely and openly
acknowledged to the court below that “Waldner’s litigation
52

and appeal is not” relevant to their enforcement efforts. The
Plaintiffs’ own words support the point that Waldner is a
“non-person” in this litigation.
The court had before it, on November 17, 2017,
Waldner’s statement that he didn’t own WIPT. Yet, that
wasn’t enough for the court. Waldner knew, from the
treatment he received from and the tenor and demeanor of
the court toward him, that a facial attack alone might not
satisfy the lower court. Events have proven him to be correct.
That is why he has sought jurisdictional discovery despite
the fact that a facial attack alone should have sufficed to
demonstrate that the Plaintiffs lacked Article III
standing on all nine counts as to him.
32

The court abused its discretion in denying Waldner
the opportunity for limited jurisdictional discovery to obtain
evidence to support his claim that the Plaintiffs used false
jurisdictional facts to plead Article III standing as to him and
jurisdiction of the court as to him.
Where, as here, Waldner lodged a factual attack to
show that the judgment was affected by the fundamental
infirmity of no case or controversy, it was error for the
court to dismiss his Rule 60(b)(4) Motion summarily in light
of Espinosa, 559 U.S. at 270 (A void judgment is “one so
affected by a fundamental infirmity that the infirmity may
be raised even after the judgment becomes final.”).____
a. The “challenged conduct “ is not traceable to
Waldner.
In a judicial admission, the Plaintiffs identified the
Lujan/Spokeo “challenged conduct” in the case. “Under the
U.S. Constitution, the Declaratory Judgment Act, and
Illinois Declaratory Judgment Act (Illinois Statutes 5/13207), an actual case or controversy of sufficient immediacy
to be justiciable did not exist until the December 29th
demand was made. Plaintiffs did not ‘own’ the Declaratory
Judgment action until that demand was made in 2016.” ECF
53

63 at 9 (emphases added). The demand is identified in the
Complaint as a demand for payment sent to them by letter
dated December 29, 2016 from “an attorney for WIPT, Inc.”
ECF 1 at 53. The letter can be seen as Plaintiffs’ Exhibit 7.
included in ECF 64 at 50-52.
33

The Plaintiffs spent plenty of ink on Waldner. “Roger
Waldner’s activities are identified in the following
paragraphs of the factual portion of the complaint: 2, 3, 11,
12, 14, 17, 20, 21, 24, 25, 26, 27, 28, 32, 36, 37, 39, 40, 41, 42,
43, 44, 46, 47, 48, and 50.” ECF 4826567 at 7. Yet, not one of
those paragraphs puts Waldner’s signature on WIPT’s
demand-letter. Nowhere in those 26 paragraphs did the
Plaintiffs trace the demand-letter to Waldner. In over two
years of litigation, they have failed to offer evidence that
Waldner sent the WIPT demand letter.
However, on direct appeal to this Court, the Plaintiffs
falsified the record below to make it appear (falsely) that
Waldner had sent WIPT’s demand-letter. “Because of
standing, ripeness and justiciability issues, the declaratory
judgment claim did not exist and was not ‘owned’ by the
Hartkes until after the payment demand was made by
Waldner’s December letter.” ECF 4632638 at 17-18 (red
numbers) (emphases added). “Hartkes did not have a
declaratory claim of sufficient immediacy and reality to
warrant the issuance of a declaratory judgment until they
received Waldner’s demand for payment.” ECF 4632638 at
21 (red letters) (emphases added). It could not be clearer that
WIPT’s demand-letter is the “challenged conduct” and
that the Plaintiffs tried relentlessly and falsely to place
Waldner’s signature on it._____
The “challenged conduct” (the December 2016
demand) is not fairly
34
{traceable to Waldner. The demand-letter was sent by WIPT’s
attorney. Complaint, ECF 1 at 53. But for that demandletter, the Plaintiffs themselves concede that “an actual case
or controversy of sufficient immediacy to be justiciable did
54

not exist.” Yet, ‘Ttlhe exercise of judicial power under
Art. Ill of the Constitution depends on the existence
of a case or controversy.” Preiser v. Newkirk, 422 U.S.
395, 401 (1975) (emphases added). No such case or
controversy existed.
Unless the Plaintiffs can place the demand-letter in
Waldner’s hand (and they can’t), “an actual case or
controversy of sufficient immediacy to be justiciable did
not exist” against Waldner. He was sued in his individual
capacity. Complaint, ECF 1 at 3. The Plaintiffs’ Counsel
were forced to resort to falsification of the record below to
place WIPT’s demand-letter in Waldner’s hands: “the
declaratory judgment claim did not exist and was not ‘owned’
by the Hartkes until after the payment demand was made
by Waldner’s December letter.” ECF 4632638 at 17-18
(red numbers) (emphases added).
b. Absent standing, no case or controversy existed
between Plaintiffs and Waldner.
The Complaint set forth the “facts” in 46 paragraphs.
ECF 1 at 11-56. The Plaintiffs devoted 26 of those
paragraphs to Waldner’s activities. ECF 4826567 at 7. It is
no secret that they had a “keen interest” in Waldner.
However, to invoke the judicial power of a federal court to
resolve “Cases” or “Controversies” under Article III of the
Constitution, the Plaintiffs must demonstrate more than a
“keen
35
[begin page 40]
as to Waldner. Its judgment was void as to him. Kan. City S.
Ry. Co., 624 F.2d at 825.
c. It was error for the court to deny Waldner’s Rule
60(b)(4) Motion.
A Rule 60(b)(4) motion to void the judgment for lack
of jurisdiction will succeed only “if the absence of jurisdiction
55

was so glaring as to constitute a ‘total want of jurisdiction’ or
a ‘plain usurpation of power’ so as to render the judgment
void from its inception.” Kan. City S. Ry. Co., 624 F.2d at 825.
Here, the district court, for reasons known only to it,
presided over proceedings that did not constitute “Cases” or
“Controversies” under Article III of the Constitution. The
truthful jurisdictional facts laid before this Court will
demonstrate clearly the absence of jurisdiction and will be so
glaring as to constitute a ‘total want of jurisdiction’ or a
‘plain usurpation of power’ so as to render the judgment void
from its inception. Kan. City S. Ry. Co., 624 F.2d at 825.
“Federal courts considering Rule 60(b)(4) motions that
assert a judgment is void because of a jurisdictional defect
generally have reserved relief only for the exceptional case
in which the court that rendered judgment lacked even an
‘arguable basis’ for jurisdiction.” Espinosa, 559 U.S. at 271.
Here, there is no “arguable basis” by which to place
Waldner’s signature on WIPT’s demand-letter. The
Plaintiffs make the judicial admission that no “actual case
or controversy” existed without WIPT’s demand-letter.
ECF 63 at 9. See,
40
also, ECF 4632638 at 17-18 (red numbers) (“Because of
standing, ripeness and justiciability issues, the declaratory
judgment claim did not exist and was not ‘owned’ by the
Hartkes until after the payment demand was made by
Waldner’s December letter.”) (emphases added); again,
ECF 4632638 at 21 (red letters) (“Hartkes did not have a
declaratory claim of sufficient immediacy and reality to
warrant the issuance of a declaratory judgment until they
received Waldner’s demand for payment.”) (emphases
added). The latter two statements are nothing short of
fraud on essential jurisdictional facts made to this
Court by Plaintiffs’ Counsel. This constitutes a Rule 11
violation subject to sanctions.
The Plaintiffs are bound by their judicial admission
that no case or controversy existed without WIPT’s
56

demand-letter. The Plaintiffs cannot trace WIPT’s
demand-letter to Waldner. The Plaintiffs had no actual
case or controversy against Waldner. The district court
exceeded the limits of its federal-court jurisdiction to
resolving “Cases” or “Controversies” under Article III of
the U.S. Constitution. No case or controversy as to
Waldner existed. The iudsment asainst Waldner was
void from its inception. Kan. City S. Ry. Co., 624 F.2d at
825.
The district court erred by denying Waldner’s Rule
60(b)(4) Motion to Reopen the Case and Vacate the Void
Judgment. “[Rjelief from a void judgment pursuant to Rule
60(b)(4) is not discretionary” Hunter v. Underwood, 362 F.3d
41

57

APPENDIX M: Brief of Appellees, Appellate Case: 17-3685
Date Filed: 02/22/2018 Entry ID: 4632638 (partial)
No. 17-3685
IN THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
Bradley R. Hartke; Douglas P. Hartke; Joan L. Hartke,
individually and as Trustees of the Joan L. Hartke QTIP
Marital Trust dated 7/12/1996 and as Trustees of the
Robert Eugene Hartke Family Trust dated 7/12/1996; The
Joan L. Hartke QTIP Marital Trust dated 7/12/1996; The
Robert Eugene Hartke Family Trust dated 7/12/1996,
Plaintiffs - Appellees
v.
Roger Dean Waldner,
Defendant-Appellant
APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF MINNESOTA
Civil No. 17-CV-01851-PAM-BRT
The Honorable Paul Magnuson
BRIEF OF APPELLEES
Martin & Squires, P.A.
David W. Larson, # 60495
John Paul Martin, # 68068
332 Minnesota Street, Suite W2750
St. Paul, MN 55101
Telephone: (651) 767-3740
ATTORNEYS FOR PLAINTIFFS APPELLEES
[begin page 12]
The Declaratory Judgment Act authorizes a federal
58

court, “[i]n a case of actual controversy within its
jurisdiction,” to “declare the rights and other legal relations
of any interested party seeking such declaration.” 28 U.S.C.
§ 2201. Where a basis for jurisdiction exists, such as
diversity, “[t]he sole requirement for jurisdiction under the
Act is that the conflict be real and immediate, i.e., that there
be a true, actual ‘controversy’ required by the Act.” Cardinal
Chem. Co. v. Morton Int% Inc., 508 U.S. 83, 96, 113 S.Ct.
1967, 124 L.Ed.2d 1 (1993) This “actual controversy”
requirement is equivalent to Article Ill's case-or-controversy
requirement, see Medlmmune, Inc. v. Genentech, Inc., 549
U.S. 118, 127 S.Ct. 764, 771, 166 L.Ed.2d 604 (2007), and
thus incorporates Article III doctrines of ripeness and
standing. Teua Pharms. USA, Inc. v. Novartis Pharms.
Corp., 482 F.3d 1330, 1336-38 (Fed.Cir.2007).
The declaratory complaint filed by the Hartkes seeks
a determination that the enforcement of Waldner’s and
Corporate Appellants’ claims for breach of two notes is
barred by the affirmative defenses listed in the complaint.
Hartkes’ complaint for declaratory judgment recites in
sufficient factual detail an actual and legal controversy
between parties, and when the controversy became
justiciable, in late December 2016. The threat of injury tp
Hartkes became imminent, and jthe controversy became
jj usticiable after the demand for payment on the note was
made.
Because of standing, ripeness and justiciability
issues, the declaratory judgment claim did not exist and was
not “owned” by the Hartkes until after the payment demand
12
was made by Waldner’s December letter.
[begin page 16]
The Court disagreed, ruling as follows:
Venturi’s declaratory claim did not arise until
after limitations had run on defendants’ counterclaim
for breach of contract.
59

Venturi filed its Complaint in state court
pursuant to Illinois’ declaratory judgment statute,
S.H.A. ch. 110, 1 2-701. In order for a plaintiff to have
standing under the statute, there must be an actual
controversy, (i.e., the facts and issues are not
premature or moot) and the party seeking declaratory
relief must possess a personal claim, status or right
which is capable of being affected, [citation omitted]
Put in a more comprehensible form, the test is
whether, considering all the circumstances, there is
substantial controversy between the parties having
adverse legal interests of sufficient immediacy and
reality to warrant issuance of a declaratory judgment]
In the case at bar, Venturi first received
notification of General and Austin’s claim against it
on September 16, 1987. The Court, in light of the
authority cited above, holds that Venturi had no
standing to bring (and thus did not “own”) a complaint
for declaratory judgment until it received this
notification. Because the statute of limitations on the
defendants’ contract counterclaim ran December 6,
1984, it ran before Venturi “owned” its declaratory
claim, and therefore the limitations defense is not
precluded by S.H.A. ch. 110, 1 13-207.”
As in Venturi, Hartkes did not have a declaratory
claim of sufficient immediacy and reality to warrant the
issuance of a declaratory judgment until they received
[Waldner’s demand for payment.
The Hartkes’ claim for declaratory judgment became
justiciable and was first “owned” on December 29th, 2016.
As the lower Court ruled, Waldner’s counterclaims
16

60

APPENDIX N: Memorandum in Support of Hartkes’Motion
for further Relief under 28 U.S.C. §2202 and Minnesota
Statutes §555.08, CASE 0:18-cv-00976-NEB-BRT Document
12 Filed 03/28/19 (pp. 1-2)
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Bradley R. Hartke, et al, vs. WIPT, Inc., et al.
Memorandum in Support of Hartkes’ Motion for
further Relief under 28 U.S.C. §2202 and Minnesota
Statutes §555.08
Plaintiffs (the “Hartkes”), as and for their
Memorandum in support of their Motion for Further Relief,
state and allege the following:
[begin page 2]
INTRODUCTION
The Hartkes have been dealing with Roger Waldner
and his sham corporations for 16 years, since he swindled
them into signing fraudulent notes and mortgages in 2002.
Since then Waldner has sued them and others again and
again, pro se, always losing. He has been sued by others,
again and again, with him always losing. The Hartkes
request an Order from this Court implementing the Federal
judgment affirmed by the 8th Circuit finding the notes and
mortgages void and ending all Waldner litigation involving
the Hartkes.
HISTORY AND STATUS OF THIS MATTER
In 2017, the Hartkes obtained a declaratory judgment
from Senior Judge Magnuson of the Minnesota Federal
Court holding that certain notes and certain mortgages on
properties located in Martin County, Watonwan County, and
Cottonwood County are void and unenforceable due to the

61

I

running of the statutes of limitation. (Petition Exhibit E12 ).
Defendants WIPT, Inc., The One Stop, Inc., and RDW-KILT,
Inc. are parties who have claimed a mortgage interest in the
properties. They are also parties to the notes or subsequent
assignments. (Mortgages, Petition Exhibit A and B;
Assignments, Petition Exhibit C1-C3 and D1-D2). 'Roger
jWaldner personally filed a notice of Lis Pendens against the
properties, although he does not have, and has never had, an
interest in the properties nor was he a party to the notes.
(Exhibits 1-1,1-2, and 1-3)
[end page 2]

12 All of the exhibits included in the Removed Petition,
and numerous other exhibits supporting the entry of
Judgment, are found within the filings of related case
number 17-cv-1851.
62

/

APPENDIX O: Memorandum in Support of Hartkes’Motion
for further Relief under 28 U.S.C. §2202 and Minnesota
Statutes §555.08, CASE 0:18-cv-00976-NEB-BRT Document
12 Filed 03/28/19 (pp. 1, 5)
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Bradley R. Hartke, et al, vs. WIPT, Inc., et al.
Memorandum in Support of Hartkes’ Motion for
further Relief under 28 U.S.C. §2202 and Minnesota
Statutes §555.08
Plaintiffs (the “Hartkes”), as and for their
Memorandum in support of their Motion for Further Relief,
state and allege the following:
[begin page 5]
County Minnesota to remove and discharge the
mortgages, assignments, and lis pendens filed in those
counties.
FACTUAL BASIS FOR THE MOTION FOR FURTHER
RELIEF
On June 1st of 2017, the Hartkes initiated a
declaratory judgment action in the U.S. District Court of
Minnesota. The matter was assigned to the Honorable Paul
Magnuson, Senior Judge. Hartkes were seeking a
declaration that certain mortgages on property primarily
located in Martin County, but also parcels located in
Cottonwood and Watonwan counties, all in Minnesota, were
unenforceable based on statutes of limitation. Hartkes also
sought judgment voiding the notes and assignments
accompanying those mortgages.___________ _________
__(The notes and mortgages originated in 2002 and were
[between the Hartkes and “The One Stop”. They were
governed by the 10-year statutes of limitation of Illinois and
63

I

Iowa. jThe mortgages were subsequently assigned to
defendants WIPT, Inc, and RDW-KILT, Inc.
On July 10th, 2017, Defendant Roger Waldner,
personally, filed notices of Lis Pendens with the Martin
(#2017R-433565), Cottonwood (#280686), and Watonwan
County (#229297) Recorders against the properties that
were subject to the Federal Court action. Roger Waldner is
not an attorney, he is not a party to any of the notes, nor does
lie claim an interest in any of the mortgaged properties.
Judgment was entered by the United States District
Court, District of Minnesota, on November 29, 2017, File
Number 17-cv-1851. The operative language on the face of
the judgment related to the statute of limitations is:
“8. The relevant statutes of limitations preclude
enforcement of the notes and mortgages at issue
in this litigation.”
The judgment additionally stated that:
[end page 5]

64

No. 19-1371
In the
SUPREME COURT of the UNITED STATES
ROGER DEAN WALDNER,
Petitioner,
v.

BRADLEY R. HARTKE; DOUGLAS P. HARTKE; JOAN L.
HARTKE, INDIVIDUALLY AND AS TRUSTEES OF THE
JOAN L. HARTKE QTIP MARITAL TRUST DATED
7/12/1996 AND AS TRUSTEES OF THE ROBERT EUGENE
HARTKE FAMILY TRUST DATED 7/12/1996; THE JOAN
L. HARTKE QTIP MARITAL TRUST DATED 7/12/1996;
THE ROBERT EUGENE HARTKE FAMILY TRUST
DATED 7/12/1996,
Respondents.
On Petition for Writ of Certiorari
To the United States Court of Appeals
For the Eighth Circuit
CERTIFICATE OF GOOD FAITH
(Rule 44)
Roger Dean Waldner,
Petitioner, Pro Se
P.O. Box 485
Redfield, SD 57469
Phone: 605-472-3135

RECEIVED
NOV - 5 2020
CFF1CE OF THE CLERK
SUPREME COURT, U.S.

a
Petitioner Waldner certifies that his Petition for
Rehearing is filed in good faith and not for delay. Moreover,
its grounds are limited to intervening circumstances of a
substantial effect that were not and could not have been
previously presented.
Justice Barrett became a member of this Court only
after Waldner’s Petition for Certiorari had been denied. Her
views and her vote on Petitioner’s Petition for Rehearing
may provide the necessary impetus for a majority of this
Court to grant Petitioner’s GVR.
Justice Barrett’s views and vote are intervening
circumstances of a substantial effect that were not and could
not have been previously presented.
This Petition for rehearing is limited to the grounds
specified in S.Ct. Rule 44.2, is presented in good faith and
not for delay.
Dated: October 29, 2020

Respectfully submitted,
Roger Dean Waldner
Petitioner, pro se
P.O. Box 485
Redfield, SD 57469
Phone: 605-472-3135

